<html>
<title> - ACCESSIBILITY OF THE HOUSE COMPLEX FOR PERSONS WITH SPECIAL NEEDS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



   ACCESSIBILITY OF THE HOUSE COMPLEX FOR PERSONS WITH SPECIAL NEEDS

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 28, 2005

                               __________

      Printed for the use of the Committee on House Administration



                    U.S. GOVERNMENT PRINTING OFFICE
23-251                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
CANDICE MILLER, Michigan               Ranking Minority Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director

 
   ACCESSIBILITY OF THE HOUSE COMPLEX FOR PERSONS WITH SPECIAL NEEDS

                              ----------                              


                        Thursday, July 28, 2005

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
1310, Longworth, Hon. Robert W. Ney [chairman of the committee] 
presiding.
    Present: Representatives Ney, Ehlers, Millender-McDonald 
and Lofgren.
    Staff Present: David Duncan, Deputy Staff Director; 
Jennifer Mohtarez, Professional Staff Member; Michael Harrison, 
Minority Professional Staff Member; George F. Shevlin, Minority 
Staff Director; and Sterling Spriggs, Minority Tech Director.
    The Chairman. I want to welcome everyone today to the 
Committee on House Administration. We are holding an oversight 
hearing on the efforts to improve accessibility to the House 
complex. I want to thank our Ranking Member, Juanita Millender-
McDonald, from California, for her interest, and also the staff 
on both sides of the aisle for the work, preparation, and 
interest they have on this issue. I would also like to thank 
our House officers who are here today, as well as our Chief of 
Police. And I appreciate their work, not just today, but over 
the years, to work with the issues.
    And again, this oversight hearing is on efforts to improve 
accessibility to the House complex for persons who have special 
needs.
    First we will hear from our good friend, Congressman 
Langevin. And our next panel will then include people 
responsible for accessibility here on the House side of the 
Capitol. We have Chief Gainer, Terrance Gainer, Chief of the 
Capitol Police; Alan Hantman, our Architect of the Capitol; and 
House Chief Administrative Officer, Jay Eagen.
    Our third and final panel consists of professionals from 
the private sector. They have experience in deploying common 
sense, rational solutions to improve accessibility.
    Before we get started with this hearing, I just want to 
make a few comments. After our recent evacuations, several 
folks came to us--Members, staff and persons that had a form of 
disability--and said that they had problems getting out of the 
buildings. I recognize the unique challenges we face while 
trying to evacuate over 40,000 people in the entire complex of 
Congress--House, Senate, and the Capitol proper--within a 
matter of minutes; this is a problem that we can't allow to 
continue. In the other hearing we had on the evacuation, some 
of these issues were raised. And this hearing is going to look 
at how we can go about solving the problems related to 
emergency evacuations. But the scope is a lot broader than 
that. We are also looking into the issue of getting into the 
buildings, getting around buildings, working here, visiting 
here, and communicating here.
    When we talk about accessibility, my perspective is that a 
facility isn't truly accessible unless it is accessible to 
everyone, especially an important institution like ours, where 
all people must be able to access their elected Representative 
on issues affecting the citizenry of the United States and, 
frankly, issues affecting people around the world. When 
constituents visit their Members, they should have an easy time 
in doing so, regardless of their relative abilities. That must 
be the manner in which the people's House operates.
    While our institution is unique in the functions and 
structures that house it, it is also full of rich architectural 
history. If we tore them down and started over, we obviously 
could make them more accessible and easier to use, but that is 
not a realistic approach to the problem. So we need to improve 
accessibility as much as possible, while trying to maintain the 
historical significant aspects of the building.
    The hearing today will provide an opportunity for the 
Committee to examine past and current efforts to improve the 
House's accessibility, but it will also provide an opportunity 
to identify creative solutions.
    Our final panel will provide insight into techniques and 
systems used elsewhere to address the continuing need for 
improvement and accessibility, and to give suggestions on how 
to apply these technologies and best practices to help us 
achieve our collective responsibility for safety and easy 
access for all visitors, Members and staff.
    And again, I want to thank our Ranking Member and members 
of the Committee that are here. We have two members that have 
joined us. And again, this is an important issue; it is an 
issue that Members want to deal with and have wanted to address 
over the years. And in some cases new Members' offices are just 
designed for years past, when unfortunately in our society this 
wasn't thought about; or frankly, if it was thought about, 
nobody really cared to do anything about it. Times have 
changed, thank goodness, in the United States: that is the 
purpose of our hearing.
    And with that, I will yield to our Ranking Member. Thank 
you.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and good 
morning to all of you.
    First of all, I would like to thank you, Mr. Chairman, on 
the last evacuation, because I was right under your wings and 
you were able to provide me with information as to what was 
going on in terms of our having to evacuate. And so we thank 
you very much for that.
    Also, I would like to thank the Chief and the Capitol 
Police. I might add that though there are improvements to be 
made, there was a very smooth transition, especially as far as 
I am concerned, as we left the floor to leave the building. And 
so I thank all of those Capitol Police who were there and thank 
you for the improvements that have been made to date.
    Mr. Chairman, this is a very important hearing on the 
accessibility of the House complex for persons with special 
needs.
    This is a very timely hearing because this week marks the 
15th anniversary of passage of the Americans with Disabilities 
Act of 1990. Like several other laws, the ADA did not initially 
apply to the Congress. Only after the passage of the 
Congressional Accountability Act did Congressformally decide to 
comply with the ADA and make itself as accessible as possible for all 
members of our society. In retrospect, it seems incredible that 
Congress did not cover itself from the start, but it did not. This 
hearing will review the progress made toward that goal in the last 
decade.
    As we begin, perhaps we should take a moment and consider 
the term ``accessibility'' in the broadest context. In my view, 
accessibility means ensuring that everyone can enter the House 
facilities readily, conduct his or her business while there, 
whether it be for work or pleasure, and then leave the facility 
safely, especially in the event of a dire emergency or 
necessity. Clearly, the House has made progress. It is more 
accessible now than it was a decade ago.
    Members of our second panel today, the Architect of the 
Capitol, the House Chief Administrative Officer, and the Chief 
of the Capitol Police have contributed greatly to that 
progress, and I thank them for that. More work lies ahead, and 
we look forward to their plans and recommendations.
    We should also look forward to hearing from our third panel 
of distinguished onsite experts who can offer common sense 
solutions to the significant difficulties that remain. In 
addition to those two panels, I certainly look forward to 
hearing from our distinguished colleague from Rhode Island, 
Representative James Langevin. Mr. Langevin can provide the 
perspective of a Member who must confront the full range of 
accessibility issues in the course of his work in the House 
every day.
    Mr. Chairman, this is an especially good follow-up to our 
June hearing that examined the May 11th emergency evacuation of 
the Capitol complex. We heard then about the need to redouble 
our focus on emergency planning. I certainly look forward to 
hearing the views of today's witnesses on this aspect of 
accessibility.
    There is much to explore here today. Again, I appreciate 
your holding the hearing, Mr. Chairman, and I look forward to 
the testimony.
    The Chairman. I thank the Ranking Member, the gentlelady 
from California, for her comments.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. And I want to thank 
you for holding this hearing. I think it is one of the more 
important pieces of legislation passed in the past couple 
decades. I appreciate the first President Bush for initiating 
this and pushing it hard and getting it done. I only regret 
that Congress did not immediately put it in effect in our 
buildings here. I wish they had; it would have given us a head 
start. But I am pleased that when Newt Gingrich became Speaker, 
that was a very high priority for him. So we put ourselves into 
that law very quickly.
    I think the progress is very good. It is very difficult to 
do many of these things in these old buildings, especially with 
the large amounts of stone and concrete in the buildings. We 
have made progress; we have more to do. And I think it is very 
important that we have this hearing so that we can highlight 
what remains to be done. But I am pleased not only for the 
reasons of staff members being able to get around the buildings 
easily, but especially the many tourists that we have. And I 
know that many of those who come from my district are elderly, 
they charter buses to come, and they would not have been able 
to see the Capitol very well at all in the past. Now they can 
come and thoroughly enjoy it, and they do enjoy seeing where 
the founders of this Nation worked. And so it is not just a 
matter of accommodating employees, but accommodating millions 
of visitors.
    I yield back.
    The Chairman. Thank you. The gentlelady from California, 
Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I do have a statement, but I 
know Mr. Langevin has a conflict with another committee 
assignment, so I am wondering if I can defer until after his 
testimony.
    The Chairman. You may defer until afterwards.
    [The statement of Ms. Lofgren follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.001
    
    [GRAPHIC] [TIFF OMITTED] T3251.002
    
    [GRAPHIC] [TIFF OMITTED] T3251.003
    
    The Chairman. And with that, we want to welcome our 
colleague, Congressman Langevin. Welcome.

 STATEMENT OF THE HON. JAMES R. LANGEVIN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Langevin. Thank you, Mr. Chairman.
    Good morning. I want to begin by thanking you, Chairman Ney 
and Ranking Member Millender-McDonald, and the entire committee 
for convening today's hearing, ``Accessibility of the House 
Complex For Persons With Special Needs.'' I commend you for 
your dedication to improving our service to Americans with 
disabilities, and I am grateful for the opportunity to testify.
    In particular, Mr. Chairman, I just want to mention how 
much I appreciate how personally you have been involved in 
accessibility issues. And people with disabilities certainly 
have a friend in Bob Ney--and I appreciate that--as well as Ms. 
Millender-McDonald and the other members of this committee.
    This week marked the 15th anniversary of the Americans with 
Disabilities Act, and I have encouraged Americans to 
acknowledge the anniversary by reflecting on the act's 
successes and discussing the work that is still left to bedone. 
It is fitting that we also examine our own workplace and the ways that 
we can make it better.
    Now, when I entered Congress in 2000 as the first 
quadriplegic ever to serve in the House, some changes had to be 
made to accommodate my service. I would like to start by 
acknowledging the efforts of the House leadership, the CAO, 
this committee and many others to ensure that I can work in 
Congress just as effectively as any Member. And I was, and 
continue to be, overwhelmed by how helpful my colleagues have 
been.
    I was provided accessible office space on the first floor 
of the Cannon Building; additional space on the House floor was 
provided through removal of a chair; and an adjustable podium 
in the well of the Chamber also, that allows me to address my 
colleagues on the floor. And like many reasonable 
accommodations, this podium, which moves easily up and down to 
various heights, has proven useful to Members both with and 
without disabilities.
    Now, while these changes have made it possible for me to do 
my job, there are certainly areas where the House can improve 
at accessibility, both for me and for our many disabled staff 
members, interns, and especially visitors.
    I believe the most pressing issue facing persons with 
special needs in the House of Representatives is in the area of 
emergency preparedness. Now, because of the limited number of 
accessible entrances in and out of the Capitol, it is critical 
that these accessible routes are clear, marked, staffed and 
unobstructed. Capitol Police and other staff members must be 
knowledgeable about where to direct visitors in the case of an 
emergency or evacuation. And again, recent years have seen many 
significant improvements in this area, but we still need to 
remain ever mindful of the needs of those with disabilities as 
we implement an emergency response and evacuation plan.
    Now, for example, I understand that the House will soon 
implement new guidelines designating Capitol Police-staffed 
elevators in each House office building to be used by 
individuals with disabilities during evacuation. And I applaud 
this initiative, and I hope that all officers will receive 
training about how to communicate this information to their 
disabled staff, their interns and guests. And I would also 
advocate that each building entrance have the right evacuation 
information available to share with visitors with obvious 
disabilities.
    I know that also one elevator in the Capitol Building uses 
a separate power supply and will remain operational in a 
blackout. However, I am concerned that visitors and most staff 
are not aware of this elevator and could not take advantage of 
it in a power loss situation. I would suggest that signs be 
placed in the Capitol so that all individuals with disabilities 
are aware of the location of this elevator.
    Now, furthermore, it would be wise to consider ensuring 
that at least one elevator in each House office building is 
similarly set up to be unaffected by power loss.
    One other thing that comes to mind as well: When there is a 
vote in progress, for example, we know that the bottom elevator 
buttons no longer are functional for the Member elevators, and 
the elevator buttons above those that are normally used are the 
ones that are in operation; and obviously those are far out of 
reach for someone who is in a wheelchair, not able to reach to 
that height. So I think it would be important to reconsider the 
placement of those buttons, or making them operational in the 
event of--the bottom buttons operational in the event of an 
emergency.
    Now, I also serve on two committees, Armed Services and 
Homeland Security. The Armed Services Committee hearing room 
was made accessible for me during my first term. However, the 
Homeland Security Committee does not have a permanent committee 
room, and we have met in several locations over the last few 
years. And when the committee utilizes a room, a temporary 
portable ramp is often brought in so that I can access the 
dais. And while this works on a day-to-day basis, in the case 
of an emergency, having to properly position the ramp and clear 
obstacles could shave valuable minutes off my exit time. Now, I 
hope in the near future the plans will be made to make all 
hearing rooms accessible.
    Finally, I believe our most critical shortcoming is the 
access to the House Chamber itself. In order to exit or enter 
the Chamber, I and other wheelchair or scooter users must use a 
doorway off the Speaker's lobby, far to one side of the floor. 
Now, under normal circumstances, this route is adequate; 
however, in a panic-filled emergency situation, I am not 
confident that I could make it through the crowd and out of the 
Chamber quickly or safely if I were on the opposite side.
    Now, my staff has attended emergency drills on the House 
floor on my behalf, and they have expressed the same fears to 
me based on what they witnessed during the exercises.
    Now, I understand that options and work is under 
consideration for emergencies, to include the use of a pull-out 
ramp that could be extended over the stairs when needed. Under 
this scenario, a designated employee would have the 
responsibility for placing the ramp over the stairs at the main 
entrance in order to provide handicapped Members or staff an 
additional exit from the Chamber. And while these solutions 
sound viable in theory, I certainly have doubts about their 
execution in a chaotic and panicked evacuation where everyone's 
primary concern will be getting themselves to safety as quickly 
as possible.
    If you can think of how it would play out, I understand 
that this ramp would be over the stairs opposite the Speaker's 
rostrum, and someone would have to pull the ramp out over the 
stairs. Again, in theory it works, but if the alarm goes off 
and people are quickly exiting the Chamber, that means they 
would have to stop people from exiting, pull out the ramp, get 
it into position, and then allow people to go out. I just find 
it unlikely that that is going to play out as intended.
    Now, as you address accessibility issues facing our 
workplace, I hope that you will bear these comments in mind. 
Again, I want to thank the committee for your interest in these 
issues.
    My treatment as a Member of Congress illustrates the 
tremendous advances America has made in terms of accommodating 
employees with disabilities. It shows how institutions, even 
very old ones, can adapt to accommodate people in special 
circumstances.
    I have often said that I may be the first quadriplegic ever 
to serve in the United States House of Representatives, but I 
most certainly will not be the last. We owe it to our 
colleagues, our visitors, and to the future leaders of our 
Nation to do all that we can to see that the Capitol complex 
meets their accessibility needs.
    And with that, Mr. Chairman, I yield back and I thank you 
for the opportunity to testify.
    [The statement of Mr. Langevin follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.004
    
    [GRAPHIC] [TIFF OMITTED] T3251.005
    
    The Chairman. Well, I want to thank the gentleman, and I 
think your testimony is important. Also, I would like to state 
that you contribute a lot to Congress, and add valuable 
insights to the issues we deal with. I know when I was in the 
state senate one time, I had fractured my leg, and it was 
temporary, 6, 7 weeks--and this was years ago, 14, 15 years 
ago--trying to get around was a nightmare. And it sure woke me 
up. And I don't think a lot of people think about the issue. 
You being here and the insight you provide is extremely 
valuable for the House future. It extends not just to Members 
but also to visitors and staff.
    Here in our Committee, when I first became Chairman, we 
hired a gentleman who did our policy, who is blind; he has now 
moved over to the Department of Commerce. But it gave us a lot 
of reflection and insight here about ways that we could change 
things. And the way we did it was to sit down with Pat and find 
out ways that worked. And some of those things have become 
permanent ideas that we can use in other places in the House. 
So I appreciate your testimony.
    I have one question to ask. I guess I didn't follow it; the 
issue of the ramp that pulls out by the Speaker's rostrum, it 
goes over which step?
    Mr. Langevin. Directly opposite the Speaker's rostrum. The 
door, for example, that the President enters and exits during 
the State of the Union, that main entrance, just opposite his 
rostrum at the other end of the Chamber.There will be--I guess 
they are working on installing a ramp that will pull out from 
under the stairs and go over the stairs. I have advocated that 
there should be a permanent ramp that is placed there. It is 
only a matter of a few stairs, and it doesn't seem that it 
would protrude out too far into the hallway. In fact, the 
stairs are actually recessed in before you actually get to the 
end of the doorway, so it really wouldn't extend far out to the 
hall. I have advocated that that be a permanent ramp so you 
don't have to have someone pull it out and put it back every 
time you want to use it.
    The Chairman. It would probably help in that case, too. 
Some of the stairs have narrowed over the course since 1859, 
going up into there. Now I know where you are talking about.
    I think you are talking about room 311, with Cannon for 
Homeland Security, Room 311.
    Mr. Langevin. There are a few different committee rooms 
that they use.
    The Chairman. I know that the Architect is equipping Room 
311 with some changes. There is still an issue where Homeland 
Security is looking for some office space in another building, 
I don't know which one. But I think 311 has an August plan by 
the Architect, which is some good news on that.
    I don't have any questions, I just appreciate the insight 
that you have given us in working with us on this issue.
    The gentlelady.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And I too 
appreciate you coming this morning. You have set the precedent 
for us to really look at this critically for Members, as well 
as for those who come to visit in the House.
    When you spoke of signs in the corridor, throughout the 
corridor, that they should be clear, marked, and I think 
lighted, and also I think they should be audible for those 
special needs folks who need to have that type of sound as 
well, as we evacuate or have to evacuate.
    You mentioned elevators. They are slow with us anyway. I 
think these elevators need to be checked and double-checked. 
But to even think of the fact that the button needs to be in a 
place where it is accessible is another very sensitive thing 
that perhaps a lot of us don't think about, and I think it is 
so important that that is done.
    Are there any other things, any other organizations and 
departments here in the House that you have tried to have 
accommodations and they have not been readily accessible to 
you? Or are people very accommodating to you?
    Mr. Langevin. No. I found in most all situations, those 
that have responsibility for trying to make the changes have 
worked diligently to make it happen. With the exception of 
adding a permanent ramp through one of the other doors of the 
House Chamber, of the House floor, everything else has happened 
pretty quickly.
    The only other thing that comes to mind is the issue of 
automatic door openers for people with disabilities. You know, 
I suppose if you have a staff member or visitors who come to 
visit, they can't exit or enter the room without the assistance 
of someone opening or closing the door. Obviously--I know I 
have automatic door openers right outside my office. I know Ms. 
Lofgren has a member on her staff with a disability and has 
automatic door openers outside of her office. And some Members 
do. I notice maybe a couple of other Members have them. But 
that should, if possible, become standard.
    And the other only thing that comes to mind is--and I don't 
necessarily have any answers as to how you remedy this, but for 
someone with a disability there are only two ways to--oh, I am 
sorry; there are two or three ways to exit the building: the 
Capitol, and that is merely all on the first floor. But if you 
are coming right off the House Chamber, for example, if I am 
coming out of the House Chamber I have to exit the Chamber, get 
into the elevator, go down one floor, and then down a corridor 
and out the first floor entrance, or go down to the sub-
basement and exit through the tunnel.
    And I know that there are options that are being considered 
or reviewed as to how someone could exit the building from the 
second floor, as most Members would do if they were leaving the 
Chamber in an emergency situation; even routine. But other than 
that, and adding a probably very long ramp off those very high 
stairs, there aren't many good options. But I know that there 
are also situations where they have special chairs that people 
would be transferred into and could help the individual to go 
down the stairs. But those are just the things that come to 
mind.
    Ms. Millender-McDonald. That is great information, and 
information that we should, indeed, take under advisement in 
ensuring that we continue to provide accessibility for more 
Members who are coming in and more visitors, who are sure to 
increase. Given the expansion in the new Visitors Center, we 
will have more folks coming in.
    You spoke about the one elevator that remains operable in 
light of a blackout, and a lot of folks don't know about this 
elevator. I suppose I don't know either. Where is this elevator 
again?
    Mr. Langevin. If you are looking at the House Chamber,and 
you are looking right at the Speaker's rostrum, it would be the 
elevator to the left of the--so you would exit the Speaker's lobby 
left, and it is--Wendy, the elevator operator, it is usually----
    The Chairman. Is that the elevator that Wendy operates?
    Mr. Langevin. That is right.
    The Chairman. Okay. Everybody knows Wendy.
    Mr. Langevin. And I have been informed, unless I am 
mistaken, that all elevators work even if the fire alarms are 
going off, the emergency alarm is going off. I believe that is 
correct.
    Mr. Hantman. We have emergency power on two elevators in 
the Capitol.
    Ms. Millender-McDonald. And where is the other one, Mr. 
Architect?
    Mr. Hantman. On the Senate side.
    Ms. Millender-McDonald. I was going to ask, what is the 
comparable nature of the House and the Senate in terms of 
accessibility? And I suppose you will get to that when you come 
to that.
    So during the last evacuation, I was concerned about other 
Members as well as yourself in getting out. I wonder if--and 
typically they tell you if emergencies come, do not use 
elevators; but that one, of course, will have to be used by 
those who are with special needs. Is that the elevator that you 
went down on to get out?
    Mr. Langevin. That's right. And I knew about it, so I 
automatically just went to the elevator and down to the first 
floor and out. They said the other option is to go down to the 
sub-basement and out through the tunnel.
    Ms. Millender-McDonald. Mr. Chairman, I was asking staff if 
all hearing rooms have the accessibility of Members to come up 
to the dais. And they think perhaps all of them were 
accessible, with the exception of the one that the Congressman 
speaks of in the area, I suppose, that he has been using in 
terms of Homeland Security. So that is something that we need 
to check. And I had a briefing the other day in 311, so there 
needs to be more further work on that as well.
    We thank you very much for being here this morning, sharing 
your thoughts with us. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlelady from California.
    Ms. Lofgren. Well, I thank Congressman Langevin. As a 
Member of Congress, he has the ability to be heard in a way 
that members of the staff and public don't, and so I think it 
is very important that he is here, not only identifying issues 
that he has faced, but also speaking for hundreds of people who 
couldn't be a witness, who are in wheelchairs or who need 
accommodations for access in emergency. I think it is very 
important both for the public and for staff, and I thank you 
for taking the time to do it.
    One question I had--we are on the same floor, and there is 
a button access into the Cannon Building--but your office is 
down the hall, so even in an evacuation--obviously you are not 
always in your office, but in an evacuation you actually have 
to backtrack, I assume, in order to get out.
    Mr. Langevin. If I were going to go out to the street 
entrance, I would just go down that hall. I am hoping that 
eventually--and I believe plans may be underway--to make the 
elevator nearest my office operational and have a separate 
power supply.
    Ms. Lofgren. So that would be one solution.
    Mr. Langevin. The one thing that also concerns me, and I 
think it needs to be thought through a little bit more, I 
understand that elevators would be designated, and people with 
disabilities, I am told--and this is just from information I 
received from a disabled staffer--said that they are instructed 
to go to one particular place and there will be people there to 
assist them out. And this individual pointed out to me, he went 
to this location and waited, you know, for a while for someone 
to arrive--which someone ultimately did arrive to assist him--
but he said he could have been out of the building long before 
if he had just gone to the nearest entrance or exit. And I 
think that is something to be considered.
    I think people with disabilities, if there is an emergency 
situation, if they know of an exit out of the building, should 
just immediately try to get out the quickest way possible. And 
if they are going to need assistance, then there is no 
particular place----
    Ms. Lofgren. I think that is an excellent point, because 
when there is an evacuation it is a little intense, and the 
less plans that need to be implemented, the better off we are 
going to be. If we could just allow people to exit on their 
own, that is much to be preferred, it seems to me.
    I have a statement which I will make a part of the official 
record. I would like to note that I do have a member of my 
staff who uses a wheelchair who is here today, Vance Taylor, 
and he has been a help to me in understanding these issues.
    And just as Congressman Langevin has for all of us in the 
Congress, one of the issues that Vance has run into--and I am 
wondering if you have, Congressman--is when there is an 
evacuation and you are on the street, the Jersey barriers are 
very close together; and in an evacuation, at one point Vance's 
chair was actually stuck between two Jersey barriers. And I am 
wondering if that is an issue that you have run into--I think 
you might have been in your van, I don't know if you were on 
the street or not--but in your moving around, whether that has 
posed a challenge.
    Mr. Langevin. I haven't run into that problem, but I think 
I know what you are talking about in terms of further out 
towards the street, a little bit away from the complex where 
Jersey barriers still exist. I have seen many of the Jersey 
barriers have been replaced by the steel poles that are 
permanently mounted in the ground that surround the Capitol 
complex. To my knowledge, those are spread spaces wide enough 
so that there is not a problem going through them. But the 
Jersey barriers, I can't speak to that, but I can see where 
that may be a problem.
    Ms. Lofgren. Maybe I can ask the Architect on that?
    I know you have to get to another committee, so I won't ask 
any further questions at this point, other than just to say 
thanks.
    Mr. Langevin. Thank you.
    The Chairman. I want to thank the gentleman again for your 
testimony and your insight. I also want to thank you for your 
assistance with the Help America Vote Act a couple years ago. 
Your insight on that was critical to us being able to get a 
bill to consideration with a lot of special needs issues.
    Mr. Langevin. Your leadership was very helpful on that 
issue as well, Mr. Chairman. Again, on this and many others, I 
thank you for your sensitivity.
    The Chairman. Thank you. Have a good day.
    Mr. Langevin. Thank you.
    The Chairman. We are on to panel two.
    I want to thank our second panel for being here today. We 
are fortunate to have with us Jay Eagen, our House Chief 
Administrative Officer; Alan Hantman, our Architect over the 
U.S. Capitol; and Chief Gainer, Chief of Police of the Capitol 
Police.
    And with that, which order do you want to begin with?
    Chief Gainer. I defer to my superiors.
    The Chairman. We will begin with the Architect of the 
Capitol. Thank you.

      STATEMENT OF ALAN HANTMAN, ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman, and good morning. And 
good morning, Ranking Member Millender-McDonald, and other 
members of the committee.
    I appreciate the opportunity to discuss our efforts to 
improve safety and accessibility across the Capitol complex.
    Safety is a top priority for the AOC. Over the past several 
years, the level of safety throughout the Capitol complex has 
been continuously improving in an effort to bring our 
facilities up to date with modern codes. Included in that 
commitment are efforts to make the U.S. Capitol and other 
buildings accessible to all.
    Because the buildings under our care are historic landmark 
structures, applying modern-day fire and safety codes and ADA 
requirements are not easy tasks, since solutions are not always 
straightforward. This sometimes involves developing alternative 
performance criteria rather than applying strictly proscriptive 
criteria in the code.
    Thorough studies are completed to assure that appropriate 
fire protections and solutions are developed, that 
accessibility and safe ways to egress are provided, while 
ensuring that unique architectural features in this building 
are not compromised or destroyed.
    Following passage of the ADA, the AOC established an ADA 
accessibility program to eliminate physical barriers and 
improve all means of access on Capitol Hill. Today, ADA issues 
are typically handled as routine components of larger projects. 
With new facilities such as the CVC, they are designed in full 
compliance with ADA from ground zero. That means adequate 
elevators, escalators, ramps, strobes, text screening and 
orientation theaters. All of these issues are much more simple 
to accommodate in new structures, as the Chairman pointed out 
in his opening statements.
    The AOC also places the highest priority on providing 
immediate attention to relieve specific accessibility problems 
that are identified.
    Mr. Chairman, over the years, Congress has been very 
supportive in providing the necessary funds to assure the 
accessibility, safety, and well-being of everyone who works in 
and visits the Capitol complex.
    The joint commitment of the AOC and Congress has resulted 
in a number of vital projects, including the modernization of 
public restrooms in the Capitol and House office buildings; the 
installation of way-finding and ADA signage that features exit 
signage in Braille and raised characters; the removal of 
revolving doors and replacing them with swing doors which are 
more accessible to people in wheelchairs; the installation of 
ramps and automatic door openers, as well as the modification 
of curbs and sidewalks; the installation of strobe alarms and 
sprinklers throughout our buildings; and the establishment of 
emergency staging areas that was discussed before; the removal 
of flagpoles and other objects in hallways that are tripping 
hazards during an emergency evacuation.
    In addition, we have been working closely with the other 
legislative branch agencies to find better, more efficient ways 
to evacuate the buildings during emergencies and to educate 
people on the safest way to exit. This includes identifying 
certain elevators to be used to evacuate mobility-impaired 
individuals in an emergency. Mr. Chairman, this is a short list 
of the many projects we have been working on over the past 
several years.
    Since September 11th, we have taken a closer look at a 
number of issues beyond security; among them, accessibility and 
the ability to evacuate all people safely and quickly from our 
buildings. The AOC is dedicated to providing a safe and secure 
environment throughout the Capitol complex, while at the same 
time preserving the historic value and beauty of these national 
landmarks.
    I look forward to our continued work together on this 
important issue, and I am happy to answer any questions you may 
have.
    The Chairman. Thank you.
    [The statement of Mr. Hantman follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.006
    
    [GRAPHIC] [TIFF OMITTED] T3251.007
    
    [GRAPHIC] [TIFF OMITTED] T3251.008
    
    [GRAPHIC] [TIFF OMITTED] T3251.009
    
    The Chairman. And the CAO, Mr. Eagen.

  STATEMENT OF HON. JAMES M. EAGEN III, CHIEF ADMINISTRATIVE 
                            OFFICER

    Mr. Eagen. Good morning, Mr. Chairman, Ranking Member 
Millender-McDonald, members of the committee. I am pleased to 
be before you to talk about the CAO's responsibilities in 
assisting persons with disabilities to have assess to the House 
campus. In stating that, I would like to be clear that I would 
also like to speak to other functions that are performed by 
other House entities, including the House leadership, Member 
and committee offices, the Architect of the Capitol, the 
Clerk's Office, the Congressional Special Services Office--and 
I brought brochures from that particular operation, which is a 
bicameral service across the House and Senate boundaries--and 
the Office of the Sergeant at Arms.
    With a mandate of accessibiity as cornerstone, the CAO has 
worked over the last 10 years to assist House offices with 
making their workplaces more accessible to employees and 
visitors. In the area of computer accessibility, section 508 of 
the Rehabilitation Act provides that individuals with 
disabilities are to have access to Federal Government 
electronic information comparable to the access available 
toindividuals without disabilities.
    The Web Services Branch of House Information Resources, 
part of the CAO, assists Member and committee offices that use 
its services to create and maintain accessible Web sites. The 
CAO also publishes materials that are used as an educational 
tool about the disability services that are provided throughout 
the House.
    In January of this year, the latest version of HouseSmart 
was distributed to all House offices. Organized by topic, 
HouseSmart contains a section on available disability services 
such as audio, Braille and large-print publication services, 
and information on how to obtain specially formatted maps and 
brochures from the Congressional Special Services Office.
    HouseSmart also contains information on telecommunications 
devices, TTYs, available for hearing impaired individuals, and 
contact information for the Congressional Special Services 
Office to obtain training on how to use the TTY machines. A TTY 
is a special device that lets people who are hearing impaired 
or speech impaired use the telephone to communicate by allowing 
them to type messages back and forth to one another. Public TTY 
machines are located in the Rayburn, Longworth, and Ford House 
office buildings, and in the Capitol.
    CAO also publishes the biweekly House Services Bulletin 
that contains information about House services, including 
disability services such as the availability of TTY machines 
and a Federal relay service. The Federal relay service provides 
for communication assistance to act as intermediaries for 
telecommunications between hearing individuals and individuals 
who are hearing impaired or have speech disabilities. It also 
allows House employees, who have the same disabilities, equal 
communication access.
    As part of the renovation of House committee hearing rooms, 
CAO is installing state-of-the-art infrared assistive listening 
devices. These systems employ infrared light that carries the 
desired sound from the source--a person speaking, or music--via 
a transmitter to hearing impaired listeners wearing receivers. 
Sixteen committee hearing rooms and three subcommittee hearing 
rooms presently have the systems installed. For those hearing 
rooms that do not contain the infrared assistive listening 
devices, the Congressional Special Services Office has portable 
assistive listening devices that may be loaned for short-term 
use.
    Ten House committee witness tables have been modified to 
accommodate witnesses that use wheelchairs. CAO has two 
additional tables that comply with height requirements of the 
Americans with Disabilities Act that may be used by committees, 
or we can temporarily modify witness tables so that tables are 
compliant. In fact, the table we are using today is one of 
those loaner tables.
    During the 108th Congress, the Committee on House 
Administration approved a program to replace existing Member 
office furniture with modular furniture. Modular furniture has 
numerous features that can assist those employees with a 
disability, including data and electrical outlets at desk 
height, door pulls that are ADA-compliant, and adjustable-
height keyboards. In addition, during the office design phase, 
inquiries were made to determine what accommodations need to be 
made, and the plans were reviewed to ensure accessibility 
standards.
    ADA Services, which is under the CAO, was created to 
enhance the awareness of ADA public access issues within House 
organizations. In furtherance of this, ADA Services provides 
one-stop service to assist House staff in making their programs 
accessible to persons with disabilities. ADA Services works 
with the Congressional Special Services Office to help provide 
sign language interpreters, brochures, and maps that allow for 
blind or visually impaired visitors to tour the Capitol.
    The CAO also works in conjunction with the Architect of the 
Capitol to provide inspections to Member and committee offices 
that center on OSHA safety and ADA compliance. During these 
inspections, wheelchair accessibility of an office is assessed 
and suggestions are made to staff on office configurations to 
provide greater accessibility.
    With regard to employment barriers, the CAO administers a 
contract to provide temporary employment opportunities with the 
House officers--the CAO, the Clerk of the House and the 
Sergeant at Arms--for individuals with disabilities. The 
program is designed to provide these individuals with the 
necessary job skills that potentially lead to employment with 
the House. To date, 24 people with disabilities have been 
placed in the CAO and Sergeant at Arms offices.
    To fully realize the goal that Congress mandated when the 
Congressional Accountability Act was adopted, we see at least 
three key areas that still have more work to be done. First, 
while we have made progress, the challenge of the high volume 
of staff turnover requires a continuous education concerning 
ADA services by all entities, including the CAO.
    Second, we must keep looking for new assistive technologies 
to further break down the barriers to access. This includes not 
only physical access but also employment access.
    And finally, we need to look for creative partnerships with 
the Office of Compliance and other similar entities to provide 
a robust training program for all House staff so they can 
assist in providing access to all who work or visit the House.
    Thank you for the opportunity to testify, Mr. Chairman, I 
am happy to answer any questions.
    The Chairman. Thank you, Mr. Eagen.
    [The statement of Mr. Eagen follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.010
    
    [GRAPHIC] [TIFF OMITTED] T3251.011
    
    [GRAPHIC] [TIFF OMITTED] T3251.012
    
    [GRAPHIC] [TIFF OMITTED] T3251.013
    
    The Chairman. Chief Gainer.

STATEMENT OF TERRANCE W. GAINER, CHIEF OF POLICE, UNITED STATES 
                         CAPITOL POLICE

    Chief Gainer. Thank you, Mr. Chairman, and Ranking Member, 
and members of the committee, I appreciate the opportunity to 
appear before the committee. I would ask leave to file my 
complete remarks, and I have some abbreviated comments.
    The recent attacks on London's mass transportation system 
provides us with a vivid warning to maintain our vigilance and 
continue to build an emergency preparedness program that will 
ensure safe access and egress for each of the tens of thousands 
of employees and visitors who populate this complex every day.
    Although we can never be complacent and will always strive 
to improve, we have made great strides in the almost 4 years 
since the terrorist attacks of 9/11 in advancing our readiness 
to respond to emergencies and our ability to protect the 
occupants of the Congressional complex.
    Just in the last year, with the approval and support of 
this committee, the Capitol Police have created a 10-person 
Emergency Management Division to address the way in which we 
prepare for and respond to emergencies. This group consists of 
planning and training specialists who bring us many years of 
experience in incident command, hazardous material response, 
firefighting, public health and disaster assistance, that can 
be translated into improved contingency plans, better training 
and exercises that improve the proficiency of our officers in 
emergency response procedures.
    We work closely here with our partners from the House 
Sergeant at Arms Office and the House Office of Emergency 
Planning, Preparedness and Operations, as well as the Architect 
of the Capitol and the Senate Sergeant at Arms Office of 
Security and Emergency Preparedness.
    As an example, we worked closely with the Police Board, the 
House Sergeant at Arms and his staff on a computerized 
evacuation model of the Capitol Building that should verify the 
best evacuation routes and help us move more people safely out 
of the building in the least amount of time. If this effort is 
successful, we hope to perform the same type of modeling in 
other buildings within the Capitol complex.
    The partnership amongst the legislative Emergency 
Preparedness Organization is formalized in the Capitol Hill 
Emergency Measures Task Force. This group is made up of 
representatives of the Capitol Police, House, Senate, Architect 
of the Capitol, D.C. Fire, and other legislative branch 
entities, such as the GAO, the GPO and the Library of Congress. 
They meet every 2 weeks to facilitate improvements in our 
emergency preparedness and life safety programs.
    We do take very seriously our responsibilities to assist 
with the safe evacuation of the building. We treat every 
building evacuation, whether a drill, unintentional alarm 
activation, or the actual emergency, as a learning experience 
and a chance to improve our methods and skills. Observations 
from many sources are recorded, incorporated into our plans and 
procedures, and shared with all our divisions and shifts.
    It is unfortunate that we live in a world where such 
scenarios may need to be considered, but even the recent air 
threat evacuations provided lessons and inspired new 
procedures. Based on these events, we have implemented rally 
points for evacuees to gather on each side of the complex that 
are far enough away from the building for safety but close 
enough for the Capitol Police to provide a measure of security 
and up-to-date information on the resolution of the incident.
    The design and construction of these buildings present 
difficult challenges that have no easy financial or 
architectural solutions, but we are committed to providing 
people with physical disabilities the best possible chance to 
safely exit these buildings in the event of an emergency. This 
issue is a priority of the Emergency Measures Task Force, and 
they have worked closely with advocacy groups for the disabled 
to help formulate a practical and effective solution.
    For the last 18 months, we have been building and testing a 
prototype emergency elevator evacuation program for the 
mobility-
impaired. If an emergency building evacuation is required, a 
Capitol Police officer takes control of the designated elevator 
in each building and visits each floor evacuating people 
needing assistance. Our officers will continue to perform this 
function as long as it is reasonably safe to do so, and then in 
that event, turn this over to the fire department, who are 
better equipped and armed to do this. In cooperation with the 
Senate Sergeant at Arms, we have successfully tested this 
procedure in the Senate office buildings through several rounds 
of evacuation drills, often using mobility-impaired volunteers 
from Members' offices and committees and staffs to ensure that 
the process meets their needs.
    The Architect of the Capitol has provided excellent 
technical support in resolving a number of mechanical issues in 
the Capitol and the House office buildings. In the next few 
weeks, in coordination with the emergency planners and the 
House Sergeant at Arms, we will continue the training of both 
officers and staff on the procedures, and expect to implement 
the complete program campus-wide very shortly.
    Mr. Chairman, although we still have much to accomplish 
with our partners from the House, the Senate, the Architect of 
the Capitol, the Office of Compliance, and most importantly, I 
think, the advocacy groups, I am proud of what the Capitol 
Police have accomplished to make this complex safe for 
everyone.
    I again would like to thank you for the opportunity to 
appear before this committee, and I would be happy to answer 
any questions that you may have.
    [The statement of Chief Gainer follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.014
    
    [GRAPHIC] [TIFF OMITTED] T3251.015
    
    [GRAPHIC] [TIFF OMITTED] T3251.016
    
    [GRAPHIC] [TIFF OMITTED] T3251.017
    
    The Chairman. I want to thank all members of the panel. I 
have a few questions I just wanted to go through; I will start 
with the Capitol Hill Police Chief.
    How are offices notified of locations of the mustering 
stations for persons on the floors? By mustering, I mean the 
gathering areas where people would go to that need assistance.
    Chief Gainer. That would be part of the training program 
conducted by both the Capitol Police and the Office of 
Emergency Preparedness of the House Sergeant at Arms Office. We 
know we have a lot more work to do there. For assistance, I 
have a brochure that was designed and we developed for the 
Senate side, and it would be our intention to have this for the 
House side also. It does require further training.
    The Chairman. What can we do about emergency warnings for 
people who are deaf? We struggled here with the audio signals, 
and of course, we couldn't get it all wired, so I think you 
made a good choice in the temporary, with the plug-in signals--
I forget what you call them.
    Mr. Hantman. I think, Mr. Chairman, you are talking about 
strobes?
    Mr. Chairman. Yes, for the signal you can hear. We couldn't 
wire the whole building, so we went to the plug-ins that would 
give the emergency signal audibly--annunciators. Thank you. 
What about visuals?
    Chief Gainer. The strobe lights is what would be used.
    And if I can, Mr. Chairman, an important part of any of 
these emergency procedures is that the plan in the individual 
office and the office's responsibility in buddies, especially 
when it comes to people with disabilities, is to make sure that 
they have a buddy system and work together with that buddy.
    The Chairman. Who is responsible, in a fire emergency, for 
evacuating persons who have special needs, United States 
Capitol Police or the Metro D.C. Fire?
    Chief Gainer. The first responders, we presume, are going 
to be the United States Capitol Police. And again, based on 
the--just recently completed on the House side--the designation 
of the emergency elevators, and then the training that will be 
done over the next 30 to 60 days, the individual offices and 
the evacuees would go to the designated spots. And we are 
training our officers, who will take responsibility for the 
operation of the elevators at those rallying points. They will 
stay and do that until everybody is evacuated, unless the 
situation in the building, whether it is fire or smoke, 
precludes them from taking further action; then we will turn 
that over to D.C. Fire.
    As soon as D.C. Fire comes, working with the fire marshal 
of the Capitol complex, we set up a joint command post, and we 
would turn that evacuation procedure over to the fire 
department.
    The Chairman. If D.C. Fire cannot get here for some reason, 
what do we do? I know that the United States Capitol Police 
respond, but what do we do fire-wise to begin? We don't have 
anything that would----
    Chief Gainer. We do not have fire trucks or firefighting 
equipment. So in the event of a fire, we would sound the alarm, 
begin the evacuation, and we would continue to evacuate until 
it is no longer physically possible for us to do that.
    The Chairman. I just wanted to note one thing about the 
morning--I had arrived here very early in the morning to go 
through e-mails, 4 o'clock or something. And then around 4:10 
the alarm went off; they caught something on fire on the 
balcony. I am assuming that as D.C. came up the barrier was 
dropped and they came in. I was just wondering if there was 
some kind of problem--not that you can solve every problem--but 
what would happen to us fire-wise? We don't even have one 
vehicle on hand for the fire side.
    I think as far as still evacuating, we would still be able 
to perform that. United States Capitol Police would go look for 
all persons and also persons that have some special needs, but 
fire-wise, we are kind of on our own until D.C. Metro gets 
here.
    Chief Gainer. In many respects, except we are in the midst 
of certifying and training our officers in the use of the fire 
extinguishers, but that is not the primary response. But there 
is a process that we need to--and I think we have been working 
with the Office of Compliance to make sure that we use those 
minimum capabilities. But we think the relationship and the 
communication we have with D.C. Fire is that they are here as 
quickly as possible.
    We have our own procedures for removing the barriers to get 
them in. We work and we drill that.
    The Chairman. Thank you. And for the Architect, do you have 
any ``most difficult'' stories that are the most difficult 
things to do, or one building is more difficult than another; 
or does it tend to be difficult all over the place?
    Mr. Hantman. Well, the issue of historic preservation that 
you prefaced your remarks with earlier on, is really a 
tremendous challenge. As you know, there are ramps all over the 
Capitol, there are changes of elevation. Congressman Langevin 
was talking about differences in elevation and access to the 
House Chamber. The specific door he was talking about, for 
instance, was the main door leading right into the House 
Chamber, and there is a 20-inch differential in height over 
there with those three steps. According to ADA, we should have 
a 20-foot-long ramp accessing that if we were to meet the ADA 
criteria.
    What the Congressman was talking about was basically we are 
looking at doing a 7-foot ramp that can pull out, doesn't meet 
ADA, but it does, in fact, give you the ability to move 
somebody quickly through there and down and out of the Chamber.
    So it is really the elevational changes that become so 
difficult all around the building, whether it is the Cannon 
Building, which is specifically fairly difficult because of the 
changes in grade around the outside of the building. The West 
Front of the Capitol, for instance, with the amazing number of 
steps that we have over there; it is not very practical, in 
fact, to have ramps.
    One of the things we looked at, in fact, for the last 
Presidential Inaugural is that we redesigned the stands for the 
inauguration ceremonies to put lifts and ramps in so that 
people could get down to the Presidential platform, and to the 
congressional platforms, to give it as much accessibility as we 
could. And we try to do that on a case-by-case basis.
    Chief Gainer. Mr. Chairman, forgive me, would you mind--
lest I leave the impression that we are powerless until the 
fire department comes--there has been, under the Architect's 
direction, the installation of the sprinklersystem throughout 
the campus, which I think is very important in mitigating fire damage 
or smoke damage. So it is an important part of the process that is 
ongoing.
    The Chairman. Someone said we ought to have a fire 
department, and I believe that. We have to use the availability 
of the Metro D.C., but having a fire department is a great 
point when trying to think about every contingency. I know all 
three of you gentlemen, and we have worked for years to try to 
think of every single thing you can think of, and then think of 
something more. And I understand that nothing is perfect. But 
that day I was just thinking if there was some scenario or some 
type of bombs on different sides of the streets, where it would 
be good to have one piece of equipment on hand. But in terms of 
the evacuation, we would be intact and able to continue to do 
what we do, with or without the arrival of the fire department.
    The other question I had was to the architect. Does it make 
more sense to pursue some of these issues, hearing rooms, et 
cetera, one at a time as they come, several improvements at 
once, or in groups? Is there any strategy to that.
    Mr. Hantman. Not only in hearing rooms, Mr. Chairman, but 
in Members' offices. We have been dealing with them on a one-
at-a-time basis. It is very expensive, very difficult with the 
tight quarters and the number of people who sit at a dais, for 
instance. The new hearing room that will be used for Homeland 
Security, which you talked about earlier, used to be the Small 
Business room in Cannon 311. There will be a new lower dais 
that will be installed inside this kind of a horseshoe, and 
that will be fully accessible to any Members who would sit over 
there. And again, Veterans Affairs has been tailored 
specifically to the needs of Representative Langevin, his 
getting in there, and we have done that for his office, for 
other offices as individuals come in. We certainly have 
specific door openers, easy accessibility for that and make 
sure that we address their specific needs. The cost of doing it 
across the campus would be simply astronomical.
    The Chairman. The last question I have of the architect is, 
do we have any time frame for the completion date for hearing 
rooms?
    Mr. Hantman. In terms of ADA criteria? We, again, Mr. 
Chairman, are dealing with them on a one-by-one basis as 
needed, as members have that accessibility, as members of the 
staff serving that committee have those needs. So we are doing 
surveys of each of the individual rooms in determining what 
would have to be done.
    The Chairman. So we will have a guesstimate idea at some 
point in time. It will take 3 years at this amount of money or 
4 years at that amount of money.
    Mr. Hantman. That certainly could be developed.
    The Chairman. If we could develop guesstimate, I think that 
would be a good idea.
    Thank you.
    Mr. Eagen, do you have sufficient funding for the 
accessibility services to be carried out? This is a softball 
that is a very important softball.
    Mr. Eagen. Mr. Chairman, the one key program----
    The Chairman. Thank you for your no, Mr. Eagen. Go ahead.
    Mr. Eagen. Never is there enough funding. One key program 
that I mentioned earlier in my testimony that does have a 
direct link to ADA accessible improvements is the modular 
furniture program for Members' offices. And we began a program 
last year, and it is going to take us some amount of time to 
accomplish it. We are literally trying to cover 10,000 
desktops. The schedule is directly correlated to the amount of 
funding that is available, because the funding drives how much 
we can do on a yearly basis. So I would answer that somewhat 
politely to say, we can do it more quickly if there is more 
funding available. How quickly we do it is dictated by the 
funding to a large point.
    The Chairman. I had another question about modular 
furniture. I think modular furniture has to help in these 
terrible, terrible tight spaces in the personal offices. At 
least modular furniture gives a little bit more room. And you 
know how the offices are. If you have another foot of space, it 
is a good thing. I would assume that you have been really good 
about doing that project.
    In all seriousness, I threw that money question out there 
because you get people, Members, staff, and the public that 
want certain things done. And they are right in wanting those 
things done. But in order to get those certain things done, it 
takes a certain amount of money to do it. So I just think, 
somewhere along the line, if we look at, what we want to do and 
the space requirements, how we want to change things in 
personal offices, these committee rooms, if we get some 
guesstimates, at least we know, here it is, and then we as 
authorizers can work with the appropriators. And the 
appropriators have done a good job in talking to Mr. Lewis and 
people on the staff, and we try to take it in increments.
    I think the money question is a big one. I think we do have 
to say there are certain things we will not be able to continue 
to do unless we have a certain amount of money. We still have 
to put the effort through, whether it is ADA or other issues. 
And with that, I have one final question, and I will yield to 
my colleagues who have been so patient. If anybody will answer. 
I want to go back to a point that was brought up in previous 
hearings. There are so many things in the hallways of these 
buildings, and I know one group said, ``Well, you know, those 
are our signs on the deficit''. I am not saying I disagree with 
them for putting that sign up there, by the way. And then there 
are other people that have things in the hallways that are 
actually desks, and they haven't even marked them, ``Take it 
away'' or ``Just leave it here''. In an emergency we have to 
somehow come to terms with these. Perhaps Members could place 
them on the wall. But I still think, in an emergency, all these 
things in the hallways, especially the racks, could be tripped 
over.
    Any comments on it? Let me take it away from an emergency 
for a second.With situations of having citizens or staff or 
Members in the building that have special needs, we have devices that 
have to drive through the hallways. If there is an emergency of an 
actual plane headed here, what happens on that basis with people with 
special needs? Would anybody like to comment?
    Mr. Hantman. In line with the issues that are really 
clearly obstructions in the corridor, Mr. Chairman, one of the 
things we would like to do is outside of many Members' offices, 
there are state flags. We even have a program to take those 
flags off the floors and have wall mounted elements on them so 
that nobody would trip if they were sight impaired coming down 
the corridor. So anything that really obstructs activity going 
down the corridor is something that really needs to be taken 
care of and looked at.
    Mr. Eagen. With regard to the hallway policies, Mr. 
Chairman, you asked a similar question at the first hearing on 
this subject. The Architect and the Chief Administrative 
Officer have proposed a comprehensive set of hallway policies. 
They are intended to not only address the appearance issues 
that we talked about at the last hearing, but also the safety 
issues of egress and to make the hallways compliant with the 
Americans with Disabilities Act. I think the sensitivity that 
is confronting them is exactly what you referenced in that a 
few members have some artifacts that have been placed, and it 
has been a challenge to find a way to address those.
    The Chairman. The appearance is one thing that we could 
debate. I mean, a lot of people do care about the appearance. 
But to me, the appearance is secondary. If you have people 
going down hallways, and there are desks and furniture in those 
hallways, and you are trying to take a motorized device down 
there, that's a problem. If you are a blind person, walking on 
the right side of the hallways as you exit, and there are all 
these things ahead of you, that's a problem too. With thousands 
of people coming down hallways, I think that has to be the 
number one thought in our mind.
    Anyone else?
    With that, I want to thank you for your patience, both 
members.
    Yield to the gentlelady.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Thank you all for being here, all three of you, and we 
commend you for the work that you have done. You have done just 
exceptional work in trying to meet the requirements and the 
provisions of the ADA. And it is not an easy task, I know, but 
all the--but it is an important task none the least. I will 
start with our Capitol Police Chief.
    And Mr. Chief, you spoke about the rallying points, 
especially given the aftermath of May 11th evacuations. Have 
the existence of those rallying points been communicated to the 
Members and staff? How have you done that communication? 
Because still, at the last one, there were folks who were 
uncertain. I was in the Capitol. I was concerned about my staff 
in the House. How do those House Members, have they been 
communicated enough, those rallying points?
    Chief Gainer. Probably not, ma'am. We have just completed a 
revised air evacuation plan. It was given to the--it was shared 
with the House officers as recently as this week, and we are 
working with planning office, office of planning to complete 
that training during this August recess so that we hope, when 
everybody returns after the August recess, the training 
hopefully will be complete with all the offices and everybody 
will be aware of rally points.
    Ms. Millender-McDonald. So during our being away from the 
place, you will be training the staff.
    Chief Gainer. Yes, ma'am.
    Ms. Millender-McDonald. That would be good. However, I 
would like to think--would that 1 month be sufficient or should 
that be an ongoing type of thing?
    Chief Gainer. Clearly, as Mr. Eagen said, it really needs 
to be an ongoing event given the turnover and the fact just 
that practice does make perfect, and we need to keep re-
emphasizing that.
    Ms. Millender-McDonald. And that is true. And as you 
mention, new staff, hopefully you are cognizant of new staff 
coming on, all three of you. So whatever you are training this 
present staff, when new staff comes on, I hope you have 
something in place so that new staff then can come up to date 
with the communications of the evacuation plans and programs.
    Chief Gainer. Yes, ma'am.
    Ms. Millender-McDonald. And I hope that is in place. How do 
you--persons who are visually and hearing disabled, how do you 
warn them, staff and visitors? How do you warn them? I think 
the architect spoke about the strobe light, and it lights up at 
the time of an emergency. My question will be to you, but is 
there any place or any plan that tells them where to go? It is 
one thing for a light to light up, and things are sparkling. 
But it is another thing for people to know which direction to 
go at the time of that emergency.
    So, Mr. Hantman?
    Mr. Hantman. Thank you for that question. The issue of the 
type of emergency also becomes important. If you are talking 
about something that is an evacuation because it is a fire in 
the building, people need to come out of the building. If we 
are talking about a shelter-in-place type of situation because 
there is some other type of issue out there, you really need to 
have a sound system that talks, annunciator system that gives 
people specific directions: Go to the exit; go immediately out 
of the building; go to your rallying point; or get as far away 
from the building as you can; or whatever the nature of it is.
    Ms. Millender-McDonald. Yes, audible. We have to have 
something that is audible as well as direction pointing. I mean 
this is an education for Members of Congress as well as the 
public as well. We are learning as you are learning, and so it 
is important for me to know those--how, in fact, the Chief of 
Police, how do we warn visually and hearing disabled staff and 
visitors during the time of an evacuation?
    Chief Gainer. Well, it really is a combination of things. 
And it is probably easier for staff because you can have pre-
planning and work with each office to set that up and establish 
a buddy system so you would do it through a combination of the 
audible, which would either be the annunciator or the--as we 
just complete the PA system around the campus and the other 
means with which we send the messaging out. So for the visually 
impaired, we would be using the strobe light.
    Now, I think the challenge to us is how we identify those 
visitors to the building who haven't had the benefit of our 
planning. So we have discussed and are working on the notion 
that, where possible--and again, we are still working through 
the ying and yang of this--where possible, we would have a 1-
page laminated sheet or something that we give tothose people 
who we could identify, people with disabilities, to give them some 
further guidance.
    But, frankly, I think that is what we need to work with the 
community on so that we who aren't, don't have the insight--we 
like to believe we do--but we need to work with people who 
understand the problem to see how we best communicate with the 
individuals as they enter our building.
    In addition, then, we have to make, as the Architect and 
others are doing, is put the signage up. And you will see both 
visiting the Senate side, and we are completing the House side, 
the signage to those who can see the signage and the blue and 
white signs as to which way to go and what way not--or excuse 
me, which way to go, positive signs, as well as the marking of 
exits and other areas.
    Now there are discussions in these working groups whether 
there ought to be, you know, markings on the floor or the wall. 
And I think we are debating all those things in light of the 
architectural impact of those issues. So it is a work in 
progress.
    Ms. Millender-McDonald. You know, Mr. Chairman, as I listen 
to them, and they are holding up their various pamphlets and 
things that they are doing, because you will have to do this 
and you will have to do it where it is a person who needs 
Braille, you have to accommodate them. There is a need to re-
look at some budgetary issues here because you are having to do 
and go beyond what you normally do in terms of your budget to 
do things that are just, that must be done for those who have 
special needs.
    And as I hear you, certainly the Chairman kind of said it 
in jest, but I think it is important that there is a reviewing 
of budget in terms of what they are having to do.
    Mr. Chief, you spoke of the elevator that the Congressman 
spoke about and that you have officers directing people to that 
elevator with special needs. Did I hear that clearly? And 
officers are there to direct them into this elevator? Will the 
present operator be operating that elevator at the time of the 
evacuation, or will we have those officers doing that? How is 
that done during the evacuation period?
    Chief Gainer. Yes, ma'am. The plan is to mirror what we 
have now in practice on the Senate side, and that is that, 
ideally, we would like to have all the House officers, for 
instance, trained to operate the designated emergency 
elevators. But that takes some time. So what we are doing is 
identifying officers who normally work, as a rule, near those 
emergency designated elevators. And they will be trained by our 
own personnel as well as the House Office of Emergency 
Planning, Preparedness and Operations. They will have the keys 
to operate those, and they have a temporary breathing apparatus 
to assist them to try to stop at each floor, step off the 
elevator, look up and down the hallway to see who is coming, 
get the people on the elevator and get them out. But they will 
do that for as long as it is physically safe for them and then, 
eventually, turn it over to the Fire Department.
    Ms. Millender-McDonald. Mr. Architect, I think you spoke to 
it. Sometimes we are speaking to staff as you are speaking, so 
it is not to be rude; it is just to kind of clarify what I am 
hearing you said the last time to get to them. The Congressman 
expressed concerns about the lack of accessible ramps from the 
House Chamber, and I think you were speaking somewhat on that. 
How do you address those concerns and address the deficiencies 
in the House Office Buildings as well with respect to the 
specific emergency evacuation requirements for all employees, 
visitors with limited mobility?
    Mr. Hantman. We have identified, Congresswoman, two exits 
from every building. In fact what we could do is show you some 
boards right now.
    Ms. Millender-McDonald. And you know what, at some point 
when I get back, I want to physically walk with you guys, and 
you show me what you are talking about so that I can kind of 
internalize it as well.
    Mr. Hantman. Each of the House Office Buildings, with the 
exception of the Cannon Building, right now has two means of 
exiting safely out of the building. Here we see the Cannon 
building. And the main means of access and egress is really 
along New Jersey Avenue over here, so there is a ramp coming in 
over here. We have a fundamental problem again with elevation 
dropping off very strongly on First Street and down New Jersey 
Avenue. And we had been discussing at one time the possibility 
of having a second means of egress out through the truck dock 
area over here. That is really not an ideal situation because, 
again, you are having people come out kind of in the middle of 
the block, and it really doesn't--they are next to the truck 
dock. They have got to cross the street in the middle over 
there, so it is not good. But in terms of air con and 
evacuation, maybe it is time that we looked at that again and 
had some mitigating circumstances so that we can have a second 
means out of the Cannon Building itself. And if we could see 
another--and again, you will see here two elevators that are on 
basically emergency power. And the administrative solutions 
that the chief has will work with one of those elevators as a 
primary and another as a secondary.
    Ms. Millender-McDonald. Each one of the buildings?
    Mr. Hantman. Each one of the buildings will have two 
elevators on the emergency power. So if main power goes off, we 
have emergency generators that those elevators are hooked up to 
so that we can bring people out. Here we see the Rayburn 
Building, and there is an exit in the courtyard over here. You 
can see that there is the exit symbol for the handicapped in 
both areas. And you will see that it also occurs on South 
Capitol Street. You have a way to get out from this direction 
as well. So we really have two means of getting out of the 
building: over here on the courtyard and then over here on C 
Street. So that is the Rayburn Building. And by the way, one of 
the things that the Chief said before relative to our 
philosophy in terms of life safety, the Rayburn Building is 99 
percent sprinklered at this point in time. It will be fully 
sprinklered by the end of this year. And that really gives us 
the ability not necessarily to have the areas of refuge, 
because the code doesn't call for that if you have a fully 
sprinklered building. So that is our philosophy, to make sure 
we go in, and we do the high-end security solution for all of 
our buildings.
    Here we see the Ford House Office Building, two exits on 
Third Street. And on Second Street, we have installed ramps 
over there so people can get in from both of those sides as 
well. And here, you will see two other elevators again 
identified on the emergency power system so that they can be 
used in an emergency situation.
    On the next board over here, we see for the Longworth 
Building, we have an exit out at the front and another exit on 
the side over here on South Capitol Street. Again, twoTo 
elevator locations that would serve that function.
    And on the last board, here we see the Capitol Building 
itself which we had referred to earlier on. And this shows of 
course the ramp way at the south. There is also a means of 
egress by way of a ramp by the Memorial door over here out to 
the plaza, with an elevator over here on the east side which 
would lead right from the floor level down to this level to 
come on out. And there is another on the Senate side as well.
    Ms. Millender-McDonald.  You know, and thank you so much 
for that. It has certainly shown, to some extent, just what the 
accommodations are. In listening to the Congressman, and I was 
asking staff, how does he get into the Capitol to vote? Of 
course, he has to go through the document door or another door 
they were telling me to come in. But it takes time. A lot of us 
are running in 5 minutes to get to an elevator to get down to 
vote. But they almost have to leave before the vote starts in 
order to get to all of this and do all of that and do all of 
this to get to the floor. Is there any way we can accommodate 
them where it is, the time element is, has lessened to what it 
seems to me it would take 15 minutes for them to do all of 
this?
    Mr. Hantman. Congresswoman, we have physical issues of 
distance. Clearly, as Congressman Langevin indicated, he has a 
first floor office to enable him to shorten any trip. He is not 
on the sixth floor of a building, so he doesn't have to take an 
elevator necessarily in that building to come out. He can exit 
the building directly, which I think was a wonderful 
accommodation by the House itself. But distance is distance. 
And if you are using a wheelchair and you are coming up on a 
ramp on the south entrance, that will lead you directly to the 
elevators that will take you up to the House floor. And it 
takes a certain amount of time to traverse that area.
    Ms. Millender-McDonald. Is there any way you see that, in 
the future, near future, that that might be shortened some, or 
will there never be because of just the way this place is--
    Mr. Hantman. Well, one of the things we have done, we have 
expanded something to the amount of $20 million on elevator 
renovations to increase the speed of elevators and the----
    Ms. Millender-McDonald.  Thank you. Speed.
    Mr. Hantman. In fact, we have some 66 elevators through the 
House Office Buildings and the Capitol as well; 40 of the 62 
elevators in the House Office Buildings have been updated so 
far, and 26 of the 27 in the Capitol have been updated so far. 
So, again, the speed on that has been improved, and the 
accessibility and the compliance with ADA has also been 
improved on all of those elevators.
    Ms. Millender-McDonald. Are we mandated to meet the 
requirements that are outlined in the ADA by a date specific, 
Mr. Hantman?
    Mr. Hantman. I am not aware of any date specific. What we 
do is we have an annual plan, and we look out a number of 
years, and we try to--as indicated before, budget is always an 
issue. And what we are trying to do is ask for reasonable 
amounts of money in increments so that we can do two things, 
again, not bust the budget and, number two, also not 
inconvenience the Members. One of the challenges that we have, 
for instance, even in putting in sprinkler systems in the 
Rayburn Building is, because Members are there, every space is 
really taken. We go in at night when the office is empty. We do 
our work. We come back. We clean the office so people can be in 
it the next day. We do the same thing the following night. So 
space, as you know, Congresswoman, is at a tremendous premium 
over here. The level of inconvenience that the Members have 
really is negative from the perspective of what jobs they can 
do. So working around those schedules and doing things on 
premium time is something that we find that we must do many, 
many times.
    Ms. Millender-McDonald.  Well, let me thank those who, the 
workers, because of the times we are in our offices until 
midnight or early mornings, frankly. I try to get out no later 
than midnight, after the floor has closed and we can go back 
and finally get to some of the paper work. And they are just so 
accommodating. They won't come in and disturb us. And 
sometimes, I say come on in and get what you need. Do whatever, 
work around me. So they are trained very well to try not to 
hinder us or come in while we are there. So we thank you for 
that.
    Mr. Eagen thank you so much for this. This is very nice.
    And the Chief held up one of his, and I suppose I will get 
one of yours as well.
    But this is very nice.
    You mentioned the availability of the TTY system. And I 
read some of the information here about that. What about the 
TTY system? Do we have that for visitors who want to go to the 
hearing rooms and hear the various hearings that we have? Are 
those accommodated for them?
    Mr. Eagen. The TTY is more usable in an office environment. 
It wouldn't, I don't believe, be an effective tool in a case 
like this. Alternatively, there is a system called CART that a 
committee can have brought in at its expense for a hearing that 
would basically create a text rendition of the discussion that 
is going on in the hearing. Those are available. We have made 
arrangements for that service on occasion for committees, and 
it is the committees' discretion if they determine that they 
have a need for the particular hearing that they are holding.
    Ms. Millender-McDonald.  I know when I was the vice mayor 
of a city, and we had--we asked for those who were coming in to 
make sure that we had accommodations for those with special 
needs. And I was just wondering if we have accommodations for 
those coming in to hear, all be it the floor or the hearing 
rooms, if we had accommodations for them.
    Mr. Eagen. Well, in my testimony, I made reference to the 
assistive listening devices that are being installed in the 
committee rooms. It is an infrared system. We have done 16 full 
committee rooms and three subcommittee rooms, and as we 
continue to upgrade the audio and visual capabilities in the 
rest of the committee rooms, those kind of devices will be 
installed.
    Ms. Millender-McDonald.  Okay.
    The training programs, are the training programs and 
software adjusted for staff with functional impairment?
    Mr. Eagen. You are referring to the learning center in the 
Longworth Building I assume by that question.
    Ms. Millender-McDonald.  Yes.
    Mr. Eagen. Primarily, this is where we do most of our 
training. The facility is relatively new, and it was 
constructed in terms of the furniture to make it accessible for 
mobility issues. There are special desktops thataccommodate 
wheelchairs and so forth. In the cases where we do have a hearing-
impaired individual, we will bring in an interpreter that will be able 
to assist the trainer to be able to share the information in that 
manner. I think that the intention of creating those learning center 
capabilities was to train all staff, whether they have a disability or 
not. And I think that we need to take another look at it, quite 
candidly, and make sure that we are meeting that standard.
    I talked to the director of the program last night in fact, 
and I said, I think it is time for us to take a better look at 
the facility and see if there are some enhancements we need to 
do. So I will commit to you that we are going to take a look at 
that, and we will do it promptly.
    Ms. Millender-McDonald.  Good. I would like to hear back 
from you as to what your findings are once you have done that.
    Mr. Eagen. I will be happy to do that.
    Ms. Millender-McDonald.  And do you have special equipment 
or other provisions for seeing-eye dogs?
    Mr. Eagen. That is something I will have to research for 
you. I cannot answer that question off the top of my head.
    Ms. Millender-McDonald.  Okay. Well, you know, like I say, 
we are all getting into this and experiencing things that are 
needed. But as we look at those special needs for special 
people, certainly get back with me on that and let us know what 
we can do to help in accommodating those who also will have 
seeing-eye dogs here.
    Mr. Eagen. Congresswoman, if I could make one point 
relative to the Americans with Disabilities Act and the House 
situation that I think might be informing as you consider these 
issues: The House is a bit of a unique entity in comparison to 
many organizations where there is a single employing authority. 
In the House of Representatives, instead, we have about 600 
employing authorities. In fact, you are one of them. Mr. Ney is 
another, so forth and so on. I am one of them. And in that 
regard, it is a bit of a challenge to create that partnership, 
if you will.
    Under the law, the employing authority is responsible for 
the accommodations within their office space. And at the same 
time, we also have institutional services that are provided by 
organizations like mine or the Architect and so forth and so 
on. And sometimes, I perceive some gray areas where that bridge 
needs to be more clearly built to understand where the 
responsibility is.
    To give you an example of this, we, the Chief 
Administrative Officer is responsible for providing carpet to 
Members' offices. Members' offices don't have to pay for that 
carpet. Well, under the Americans with Disabilities Act, the 
carpet pile has to be a certain density to be wheelchair 
acceptable. So it is my responsibility to make sure that, when 
we install carpet, it is ADA compliant.
    Conversely, the responsibility, the authority for equipment 
within a Members' office, the computers and other kinds of 
devices, are actually the responsibility of the Member. It 
requires a Member's signature to buy something. We may go buy 
it for you and purchase the good for you, but in reality, the 
authority to buy that particular piece of equipment is the 
Member's responsibility. And if an accommodation were required 
for a particular employee, the responsibility lies with the 
Member to make the call that I need that piece of equipment. I 
think our role and our challenge is to try to provide the 
advice, the access to merchants and commercial entities to come 
up with those kinds of equipment.
    And an example of that was a few years ago, for the 
minority staff on the Committee on House Administration, the 
Democratic staff, they brought in an intern who was visually 
impaired. They came to us and identified a special need for a 
telephone device. We were able to work with Avaya, one of the 
providers, and they came up with a unique piece of equipment 
that worked for that particular individual. So that is an 
example of the partnership that I think we need to try to 
undertake working with 600 employing entities in the House.
    Ms. Millender-McDonald.  You are absolutely right. And how 
you have laid that out is indeed correct. But when I made 
reference to the seeing-eye dogs I am talking about visitors, 
not necessarily the Members themselves; because certainly the 
Members are, I would think, have an obligation to some of this. 
And all of us are grappling with how we better meet the needs 
and accommodations for those with special needs.
    And so, certainly, none of us are perfect in trying to do 
that. But it does take a partnership. And I grant you that I am 
here to work with all of you on how we can help to accommodate 
those needs.
    The last one I have, Mr. Chairman is one that a California 
colleague of mine, Congressman Sam Farr last year asked, he had 
an intern who happens to have used a wheelchair--and this is 
more or less for the architect. And he requested two automatic 
door openers for his office to accommodate this intern, but 
cancelled the request more than 7 weeks later when the 
internship was about to end, and the door openers still had not 
been installed. And I guess the question is, how long do 
projects usually take compared to other high-priority projects?
    Mr. Hantman. I think each individual project is fairly 
unique. I can certainly check with the Superintendent of the 
House and find out the history. In terms of automatic door 
openers, we have installed them to several buildings as well as 
to individual suites when they are called for. We installed 
them at the New Jersey Avenue entrance to the Cannon Building 
and the South Capitol Street entrance of the center court of 
the Rayburn Building, at the Ford Office building on the Third 
Street entrance and in individual offices as requested as the 
need occurs. We don't stockpile the equipment. We have to order 
it. Depending on the long lead and nascent nature of it from 
the individual vendor, we try to get to that as quickly as we 
can.
    Ms. Millender-McDonald.  And I certainly do understand 
that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlelady from California Ms. Lofgren.
    Ms. Lofgren. Just a few simple questions since I think we 
have covered a lot of ground this morning. Do you do--after an 
evacuation, do we do surveys of staff who are either in a 
wheelchair or visually impaired--we have, you know, a very 
diverse staff--to find out what they have actually run into? 
Because one of the things that I really believe is that you 
don't really understand the barriers until you live them. And I 
have certainly found that, with my own staff, things that I 
just never would have thought of.Have we done that?
    Chief Gainer. We conduct after-action reports but I can't 
say that we have talked to individuals.
    Ms. Lofgren. Can I suggest that we do that?
    Chief Gainer. I think it is a very good idea ma'am, yes.
    Ms. Lofgren. Thank you very much.
    The other question I wanted to mention, I already mentioned 
the jersey barriers, and I hope that that is easy to do. Today, 
we can go out and measure them and make sure that they actually 
work for people in a wheelchair. On the issue, this is not an 
evacuation issue, but I am on the Homeland Security Committee 
as well, and we don't have a hearing room. And it seems to me 
that it would help, I mean, the issue that Congressman Langevin 
faces is different than the public and staff because he has to 
get up to the dais, and other people generally don't. So I 
think that if we could arrive at a room and make it accessible, 
it would be a huge help rather than to have--I mean, 
ultimately, all the rooms should be made accessible, but if we 
could prioritize, if we could just get a hearing room for that 
committee, because Mr. Langevin serves on that committee, that 
would be very useful. I don't know. Maybe Mr.--I guess the 
committee, this committee helps with those assignments. Maybe I 
should direct this suggestion to the chairman. But I think it 
would save us money.
    The Chairman. If the gentlelady would yield. Just for 
clarification for you, now 311 would be transferred from Small 
Business to Homeland Security September 11, right?
    Mr. Hantman. Yes.
    Ms. Lofgren. Okay.
    The Chairman. There are still going to be some issues; the 
Subcommittee and some other staff on both sides of the aisle 
still need to determine where they are going to be. But I think 
the renovation of room 311 will be up to speed this August and 
then September 1 is the actual transfer and Small Business 
transfers it.
    Mr. Hantman. Right. And as I indicated earlier, there will 
be more dais seats on a lower level directly accessible for 
wheelchairs.
    Ms. Lofgren. I would suggest that, perhaps, I mean, we will 
have in the future other Members of Congress who are in 
wheelchairs, but right now, we just have one. And so we should 
ask Jim, you know, he is Ranking Member of one of the 
subcommittees. If we could just hone in on, prioritize that, I 
think it would help focus our finances as we move forward. And 
we have got to start someplace and then ultimately the whole 
Congress. But that is just a suggestion.
    The other thing I wanted to mention has to do with people 
who are not disabled but who are frail. And one of the things I 
noticed at the last evacuation, there were some staffers in the 
Capitol who are very elderly and who have been there a very 
long time. And I saw them, I mean, they were really in terrible 
shape. And I think, I mean, how some of those elderly people 
actually ran is beyond me. And that, in addition to what we are 
doing in terms of evacuation plans for people in wheelchairs or 
sight impaired or whatever, we ought to give some thought to 
some of the people who we know are really quite elderly and 
frail and how--I don't want to mention anybody's name--but we 
need to have a plan so that they don't drop dead running down 
the street. If I can suggest that.
    Chief Gainer. Yes, ma'am.
    Ms. Lofgren. And finally, on the issue of hallways, I will 
just make a prediction. We are going to have a huge fight if we 
try to take our American flags away. I don't think that is 
going to happen. And----
    The Chairman. Will the gentlelady yield? They will still be 
there. I had the same question. Could you explain that for the 
gentlelady? I am sorry to interrupt.
    Mr. Hantman. Congresswoman, the concept was not to 
eliminate the flags. But right now, they are sitting in bases 
on the floor which would be tripping hazards in an evacuation 
type of situation, especially for the sight impaired. So the 
design now will be that we will have wall-mounted brackets so 
the flags can be outside the office, but they will eliminate 
tripping hazards on the floor.
    Ms. Lofgren. So they would basically be out, but just not 
on the floor. Okay. I understand that better. And not just one. 
I have many flags. I have a county flag, a city flag, a State 
flag.
    The Chairman. We talked about that.
    Ms. Lofgren. Missing in Action flag. And I--just a point of 
view, Members, I don't, but Members on both sides of the aisle 
on a variety of issues have displays expressing their 
viewpoint, and I think that we are going to have a huge issue 
there. I think we ought to postpone that fight until all the 
desks and chairs are removed, and that could be quite some 
time.
    But I yield back and thank the gentleman for recognizing 
me.
    The Chairman. The question you asked was the first thing I 
asked on the flags. I also couldn't envision how those flags 
fit that way in the hallway. But I saw a model, and they 
actually, stand just as our current flags do. You just don't 
have the base. I know some Members have eight, nine flags. We 
can work with that to accommodate them. But I just wanted to 
make it clear that they would still be there. You just don't 
have the bottom wooden part with the base.
    Ms. Lofgren. That would work.
    The Chairman. I have no further questions. I just wanted to 
show for an example the infrared devices up there that Mr. 
Eagen was talking about. And these are the devices that we 
referred to in the Dear Colleague that Congresswoman Millender-
McDonald and I distributed. We say on there: If you have any 
special requests, call us and this would be the device which we 
have here. And if you have a hearing impairment problem, 
infrared may help to increase it.
    With that, I want to thank all three of you for being here. 
Our Sergeant of Arms, Mr. Livinggood, is here. We thank him for 
all his due diligence over the years working with the issues.

  STATEMENTS OF HILARY C. STYRON, ACTING DIRECTOR, EMERGENCY 
 PREPAREDNESS INITIATIVE, NATIONAL ORGANIZATION ON DISABILITY; 
   ELIZABETH A. DAVIS, J.D., Ed.M., EAD & ASSOCIATES, LLC., 
 EMERGENCY MANAGEMENT & SPECIAL NEEDS CONSULTANTS; AND JACK J. 
       MURPHY, MANAGING DIRECTOR, JJM & ASSOCIATES, LLC.

    The Chairman. And we will go on to the next panel. Thank 
you very much. I want to welcome the third and last panel for 
today.
    First, we have Hilary Styron, an EPI acting director. She 
currently serves as acting director for the National 
Organization on Disability's Emergency Preparedness Initiative. 
She has extensive experience in all hazards emergency 
management, emergency medical services, and implementation of 
long-range strategic planning. She participates in preparedness 
and planning efforts undertaken across the country. In 1991, 
she began developing disaster-related plans for training 
exercises and operational procedures, and conducted studies 
related to emergency preparedness. After September 11, she 
relocated to Washington, D.C., where she has been actively 
engaged in preparedness planning for the National Capitol 
Region as well as a wide variety of places, including the U.S. 
Senate Office of Security. So we want to welcome you here.
    And the next witness is Elizabeth Davis. Elizabeth Davis is 
an emergency management consultant specializing in special 
needs planning. She received her J.D. from Boston University 
School of Law and her Educational Master's from Boston 
University School of Education with a degree in the socio-
bicultural study of deafness and American Sign Language. She 
holds an undergraduate degree with a major in sociology and a 
minor in political science from Columbia University. After many 
years as an advocate in the disability area, she began public 
service after law school with the New York City Mayor's Office 
for People With Disabilities as an assistant to the council and 
senior policy advisor. She is also an accomplished public 
speaker and has a reputation for creating solutions. She is 
considered one of the Nation's go-to sources for emergency 
management and special needs.
    And our last witness is Mr. Jack Murphy. He established a 
business enterprise for consulting in the field of fire and 
life safety emergency action plans and preparedness, incident 
management systems, fire litigation disaster code analysis, 
building cost surveys and various fire-service-related training 
programs. As a retired fire marshall, former deputy chief, he 
is responsible for the operational budget code enforcement and 
inspection procedures, pre-incident planning, and has 
organized, coordinated and promoted community fire-safety 
awareness campaigns. And he is also corporate vice president of 
a Fortune 50 company for the global fire emergency preparedness 
department that provides technical expertise and fire 
protection and crisis management for domestic and international 
facilities.
    I want to welcome all three witnesses, and we will begin 
with Ms. Styron.

                 STATEMENT OF HILARY C. STYRON

    Ms. Styron. Good morning, Mr. Chairman, and members of the 
committee.
    I am Hilary Styron, acting director of the National 
Organization on Disability's Emergency Preparedness Initiative. 
Prior to joining NOD, as you have just stated, I had the honor 
and privilege to work on Capitol Hill as an emergency 
management practitioner with the Library of Congress and the 
Senate Sergeant at Arms Office of Security and Emergency 
Preparedness. On behalf of the NOD, founder Alan Reich and 
President and Chairman Michael Deland, thank you for the 
opportunity to appear before you today to discuss these very 
important issues.
    I would also like to thank Congressman Langevin for his 
remarks here today and for continuing to be a NOD congressional 
sponsor. The National Organization on Disability launched its 
Emergency Preparedness Initiative in the wake of the September 
11, 2001, terrorist attacks. NOD recognized that people with 
disabilities have a great stake in the effectiveness of public 
programs aimed at preparing for and responding to all types of 
disasters.
    Now in its fourth year, EPI continues its national 
education outreach and awareness programs with three primary 
goals in mind: The first is to make sure that the special needs 
of people with disabilities are adequately addressed prior to 
an emergency in order to minimize the adverse impact on people 
with disabilities in their communities. Second is to ensure 
that people with disabilities are included in the emergency 
planning process at all levels of government and the private 
sector so they can offer their insights, knowledge and 
resourcefulness. Third, is to ensure that people with 
disabilities take an active role in their personal preparedness 
at home and in the workplace. People with disabilities can 
contribute greatly to the effectiveness of local emergency 
management planning. Continued education and outreach for both 
first responders and people with disabilities will help 
increase the level of their preparedness for all people across 
the country.
    As you know, on Tuesday of this week, many of us here today 
celebrated the 15th anniversary of the passing of the Americans 
with Disabilities Act. Even with 15 years of progress, the 
results show from a 2004 NOD Harris Poll Survey of Americans 
with Disabilities that there are wide gaps in major life areas 
of people with disabilities as compared to their peers without 
disabilities, and we remain pervasively disadvantaged in 10 key 
indicator areas. An area or gap that has not been discussed in 
that particular survey is the sometimes inconsistent, 
inadequate or ineffective emergency preparedness planning for 
people with disabilities. In 2001 and in 2003, NOD surveyed 
emergency preparedness in people with disabilities, and the 
results show that 58 percent of people with disabilities did 
not know whom to contact about emergency plans in their 
community; 61 percent have not made home preparedness plans or 
plans to quickly and safely evacuate their home.
    The Chairman. I am sorry. Was this a nationwide survey, you 
say?
    Ms. Styron. This was a national survey, yes. The 2003 
survey did find a noteworthy improvement however in workplace 
preparedness. With people with disabilities that are employed, 
68 percent of those people indicate that they have made plans 
to quickly and safely evacuate from their jobs. It is a 
dramatic increase from the 45 percent in 2001. This suggests 
that efforts to design and implement disabilities-specific 
disaster planning are making an impact where people work. It is 
also an indicator that when appropriate, effective plans are 
made, all people can be prepared.
    A 2004 survey by NOD funded by the U.S. Department of 
Homeland Security polled emergency managers in States, large, 
mid-sized and small cities across the country and withregards 
to preparedness for people with disabilities. The results showed that 
22 percent of emergency managers have a plan under development that 
will incorporate special needs into emergency plans; 76 percent did not 
have a paid expert to address the issues of emergency preparedness and 
disabilities; 73 percent said no funding had been received to address 
emergency planning for people with disabilities or special needs; 42 
percent of emergency managers self-affirmed in this survey that they 
had a public awareness campaign directed as providing emergency 
information to people with disabilities with only 16 percent of those 
42 percent making that campaign available in an accessible format, 
which would be Braille, large print or cassette.
    I know that the House has worked diligently to improve 
accessibility for Members, staff and visitors due in large part 
to the hard work and guidance of this Committee. There have 
been improvements in communications equipment, building 
modifications and review of occupant emergency plans. However, 
even with these improvements, there is still much work to be 
done. It is also important to acknowledge the work of the 
Office of Emergency Planning and Preparedness, the AOC, the 
Chief Administrative Office, and the Capitol Police and what 
they have accomplished thus far. I appreciate their willingness 
to further address critical issues by being here today. 
Recognition of these issues by House planners and Capitol 
Police is a positive first step towards developing an effective 
strategy that both maximizes resources and creates emergency 
preparedness plans that are operationally sound during real-
time implementation.
    OEPPO and the Capitol Police recognize special needs issues 
by including a reference to, quote, be prepared to assist 
persons with disabilities, in the publication, Responding to 
Special Emergencies Guide for the United States Capitol 
Complex, released April 3, 2003. However, within that document, 
there was no further instruction on how to deliver the 
assistance or what that assistance might entail. In exercise 
drills, some scenarios written for the chamber did specify 
inclusion of, quote, at least one person in a wheelchair. 
However, evaluation forms only requested feedback on 
handicapped persons' transportation issues. Incidentally, the 
term ``handicapped person'' is outdated and has been replaced 
with people with disabilities. At that time, exercises were not 
evaluated for the accessibility of alerts and notifications, 
for communications equipment, facility infrastructure or 
situation briefings for staffers with disabilities. The after-
action report on one of these exercises indicated multiple 
problems, such as: The wheelchair escort got lost on the tunnel 
route; an emergency wheelchair was used incorrectly; too few 
storage areas for evacuation chairs near the chamber; and the 
wheelchair aid designated to an individual to relocate left 
that individual after he moved him to another location.
    The continuing challenge will be to prioritize life-safety 
issues over physical security perimeter measures. While a 
strategic security goal may be to keep the wrong people from 
entering the building, these same goals may keep all people 
from leaving the building in an emergency. The Strategic Plan 
of the Capitol Police to augment the prevention, response and 
support capabilities of the department does acknowledge and 
does include that staff and the public have a heightened 
awareness of their personal security and safety and would 
enhance the department's ability to educate staff, gain 
cooperation and allow for the building of partnerships amongst 
the congressional community.
    This concept can and should reach beyond physical security 
in the traditional sense and be utilized across all life-safety 
issues, including emergency preparedness for people with 
disabilities.
    Inconsistent planning for people with disabilities does not 
solely rest in the hands of OEPPO or the Capitol Police. In the 
December 2003 ``Bulletin'' published by the Office of 
Compliance, there was no mention of people with disabilities.
    The Chairman. I am sorry. Could you repeat that again?
    Ms. Styron. Sure, in the December 2003 ``Bulletin'' 
published by the Office of Compliance, there is no mention of 
people with disabilities. The current Web-based template that 
the House offices are encouraged to use to complete emergency 
action plans is dated from 1997, and that does not include 
considerations for staffers or visitors with disabilities. It 
also focuses on fire as the cause of evacuation and does not 
reference the all-hazards planning approach to develop 
emergency plans.
    While the instructions on the Web do indicate that the 
template is a guide, template-based planning obviously omits 
very critical information and ignores the special needs of 
people with disabilities in emergencies. For instance, if there 
is no staffer in the office with a known or visible disability, 
it seems likely that the office emergency coordinator writing 
their plan as a collateral duty may not know how to or if they 
should plan for people with disabilities thereby being 
unprepared for a staffer or visitor and their needs during an 
emergency. Out of sight, out of mind.
    Not having a qualified expert or guidance on how to plan 
for disabilities during emergencies that is readily available 
to the office emergency coordinators, the Capitol Police, 
OEPPO, Architect of the Capitol, the CAO and the Sergeant at 
Arms has had a negative impact on the ultimate level of 
preparedness and safety for the House complex. To further 
illustrate the need, the Capitol Buildings Occupant Emergency 
Plan published in 2000 indicated that persons needing 
assistance even if only due to a temporary condition or who 
cannot otherwise use the stairs or steps to evacuate a building 
should follow the specific instructions indicated in each 
Capitol Building Occupant Emergency Plan, the published 
emergency evacuation procedures brochures or the posted 
instructions within the building. I have already indicated that 
the templates for these plans did not account for disability 
needs, and yet part of the larger complex plan refers the 
person back to the incomplete occupant evacuation plans. It is 
like a vicious circle.
    Just imagine people with disabilities in the chaotic 
environments of an emergency thumbing frantically through 
paperwork for instructions rather than proceeding to an 
evacuation area or reaching a designated area of safe haven. A 
person with a disability would be far better served by live 
communication and real-time instructions combined with 
comprehensive training and education.
    While working on Capitol Hill, much of my time was spent 
increasing the efforts to address emergency preparedness and 
evacuation planning for people with disabilities. Even though 
some of my efforts were met with hesitation and resistance, 
positive results were achieved that included establishing a 
Capitol Hill Emergency Management Working Group that was a 
Hill-wide emergency management group;distribution of a National 
Organization on Disability's Emergency Preparedness Initiative Guide on 
the Special Needs of People with Disabilities in the fall of 2002 to 
emergency managers and police officials across the Hill complex, 
including the House. A training seminar was hosted by the Senate 
Sergeant at Arms on April 16, 2003 on emergency preparedness for people 
with disabilities. It should be noted that the seminar was open and 
invited parties were encouraged to attend. My records do not indicate 
however that emergency managers or disability specialists from the 
House were able to attend. However, House personnel with disabilities 
did attend that seminar.
    Ms. Styron. And finally, we were able to establish an 
internal working group of emergency managers, disability 
leadership and Senate staff with disabilities interested in 
developing a plan to address their needs and the needs of 
thousands of visitors with disabilities. And as you have heard 
today from previous testimony, the Senate has done some things 
with their elevators and different training protocols with the 
House and the Architect of the Capitol and the Capitol Police. 
So they are certainly moving forward, and that might be a good 
reference point for the committee to consider as far as an 
internal working group is concerned.
    In a recent discussion of the Emergency Measures Task Force 
members from across the Hill complex, concerns were raised over 
the issue of evacuations and the use of elevators. This was 
also mentioned at today's hearing and the hearing on June 9th 
of this Committee. It is clear that even if every single 
elevator functioned the same way and were ready tomorrow, there 
would still be an inconsistent approach to how and when to use 
them and who would have priority use of elevators.
    During this discussion, it was not apparent that any House 
personnel specifically representing disability issues were 
participating on this Emergency Measures Task Force.
    Recently, I spoke with several House offices that might be 
responsible for emergency preparedness planning for the special 
needs population but was unable to confirm what office has the 
ultimate authority.
    I cannot confirm if the instructions given in 2003 have 
been revised or clarified. I cannot tell you if current 
emergency action plans or occupant evacuation plans include 
disability considerations or if the staff have been 
appropriately and effectively educated and trained on these 
considerations.
    Recent events, press statements and prior hearing 
testimony, and testimony given today to this Committee suggest, 
at best, a very disjointed, confusing and inconsistent approach 
to emergency planning for people with disabilities for the 
House complex. Because of these issues being so critical to 
protecting and saving lives, the officials here today and the 
Committee, I encourage you to change the emergency management 
system and your planning priorities.
    We have just heard testimony today about what new plans are 
being developed, and in addition to those plans, there are some 
following recommendations for this committee to consider: The 
House should establish an internal disability preparedness 
working group that consists of emergency management officials, 
disability leadership and House staffers with disabilities. 
They should try to identify what House personnel have 
disabilities that are known and unknown. They should develop a 
comprehensive training and education program and exercise these 
plans on a regular basis.
    An internal working group such as this, as I have already 
said, has been reasonably successful on the Senate side as well 
as several Federal agencies here in Washington, including the 
Department of Labor, the U.S. Department of Agriculture and 
FEMA.
    The House should retain a qualified recognized expert to 
address disability-related issues for all House buildings, 
plans and procedures as well as help the House facilitate the 
aforementioned working group. This expert should be qualified 
to address disability-related issues, as well as have emergency 
management experience that includes response-and-recovery 
operations involving the special needs of people with 
disabilities.
    Continuing to review plans from a one-sided perspective of 
either the emergency manager or the disability coordinator, 
respectfully, will further perpetuate the inconsistent planning 
efforts taking place throughout the House complex. The expert 
should assist this Committee, the working group, the Capitol 
Police and the Architect of the Capitol in conducting a very 
detailed review of all House emergency action plans and 
occupant evacuation planning materials for the appropriate and 
effective inclusion of disability-related issues. This person 
should help the Committee and the Capitol Police develop the 
education curriculum and the training materials, as well as 
police protocols for response and recovery.
    Successful response-and-recovery plans that have this 
dynamic part included are available in New York, New Jersey, 
Illinois, Florida and several other agencies here within the 
Washington Federal sector.
    The House should implement a comprehensive training 
education program. Awareness and education are the keys to be 
prepared. EPI is currently providing outreach and awareness 
across the country on this very issue. We have partnered with 
several organizations, including the International Association 
of Emergency Managers (IAEM), to develop a special needs 
committee for emergency managers who are members of this 
organization. EPI's national awareness campaign, ``Partners in 
Preparedness'', will be launched for the National Preparedness 
Month in September and includes IAEM, the International 
Association of Fire Chiefs and the National Center on 
Independent Living. EPI continues to expand its role in Federal 
partnerships with DHS, FEMA, the National Capitol Region, Red 
Cross and National Citizen Corps. Education and outreach was a 
huge success at the National Capitol Region sponsored 
conference last fall, and many of the over 400 attendees 
continue to expand disability preparedness within their 
organization. I can tell youaffirmatively that the Capitol 
Police and the Architect of the Capitol did have representatives at 
that conference last fall.
    Partnerships for Education to both first responders and the 
disability community will help turn the tide for emergency 
preparedness for people with disabilities. It will help the 
House as well. And this Committee can provide the much-needed 
leadership and support to this very important accessibility 
issue for the House complex.
    The House should seek to have representation of disability-
related issues on the Emergency Measures Task Force meetings as 
a regular member of that group.
    Disability emergency preparedness issues are dynamic, with 
very specific nuances. Not having representation at the table 
with emergency management leaders from across the Hill sets the 
tone for continued exclusion rather than inclusion.
    In closing, I would like to recognize the Capitol Police 
and House Emergency Management officials for the very hard work 
that they have done to make the complex safer and more secure. 
The police have a tremendous responsibility and are to be 
commended for staying on the front lines, even when someone 
like myself comes along to say, ``the plans need some work''.
    I thank the committee for their time today and for 
recognizing the importance of planning for the needs of people 
with disabilities. And I am pleased to answer any questions the 
committee may have.
    [The statement of Ms. Styron follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.018
    
    [GRAPHIC] [TIFF OMITTED] T3251.019
    
    [GRAPHIC] [TIFF OMITTED] T3251.020
    
    [GRAPHIC] [TIFF OMITTED] T3251.021
    
    [GRAPHIC] [TIFF OMITTED] T3251.022
    
    [GRAPHIC] [TIFF OMITTED] T3251.023
    
    [GRAPHIC] [TIFF OMITTED] T3251.024
    
    [GRAPHIC] [TIFF OMITTED] T3251.025
    
    [GRAPHIC] [TIFF OMITTED] T3251.026
    
    [GRAPHIC] [TIFF OMITTED] T3251.027
    
    The Chairman. Mr. Murphy.

                  STATEMENT OF JACK J. MURPHY

    Mr. Murphy. I am Jack Murphy. I appreciate the opportunity 
to speak to you today about emergency action plans and 
accessibility.
    In the early winter of 2001, the fire and safety directors 
of greater New York appointed a task force to address the issue 
with a view to outlining a number of suggestions that would 
reflect the insight of our collective experience. Many of these 
findings have been incorporated into an emergency action plan 
that was adopted by the City of New York. One emergency action 
plan feature addresses how to best enhance a full high-rise 
building evacuation for all occupants, inclusive of people with 
disabilities.
    There are two main accessibility objectives for emergency 
preparedness. The first is to make sure that special needs of 
people with disabilities are sufficiently addressed prior to an 
emergency incident. And second is to ensure that a person with 
a disability is included in the emergency planning process by 
simply asking: What can we do to assist with your evacuation?
    The accessibility elements that are incorporated into an 
all hazard emergency evacuation must not only be with a plan of 
action but must be put into practice so as to reduce the level 
of probability.
    To further understand the impact of accessibility, an 
emergency action plan needs to address but not limit its scope. 
A solid foundation for an all-hazard emergency response begins 
with a dedicated evacuation director whose sole purpose is to 
direct an evacuation, provide the best practices of life safety 
and emergency management. To further assist the evacuation 
director, some internal and/or external threats may require a 
team approach to perform an effective evacuation or shelter-in-
place mode. A building incident command team comprised of the 
Capitol Police supervisor and a building HVAC supervisor, which 
is a heat and vent air conditioning person, would further 
enhance an all-hazard evacuation for a chemical or a bomb 
threat.
    Floor emergency evacuation teams, such as the Capitol 
staff, must have knowledge and have been drilled on their 
respective floors as to where each staircase is located, where 
all street-level exits discharge onto, horizontal transfer 
corridors, elevators designated for all-hazard evacuation and 
accountability relocations so that, on specific directions, 
they know straight forward what to do and where to go.
    Trained community emergency response teams, such as CERT, 
can be adapted by the building management staff that make up 
the mechanical section of the building. A CERT team who has 
been selected, organized and trained in emergency preparedness 
may be a valuable asset, particularly in a city-wide multiple 
incident emergency.
    All-hazard evacuation voice announcements need to be 
communicated to the occupants for particular types of 
evacuation so as to meet the needs of a potential threat at 
hand. For example, a Code Black announcement will direct 
occupants to use all elevators and all stairs, stairs only, 
stairs that lead directly to the exterior, internal relocation 
within the Capitol space, and shelter-in-place.
    The accommodations of people with disabilities and special 
needs, when asked to assist with their evacuation, a support 
network team may be added to the floor evacuation team. There 
also may be a need to install a portable Evac on floors 
identified as one that needs such a chair. The designated 
primary and secondary areas of assistance must be coordinated 
with the District of Columbia Fire Department.
    The use of elevators--and I emphasize this--for emergencies 
other than fire can enhance a rapid departure for people with 
disabilities and expedite a mass evacuation. In many large 
buildings, the existing 44-inch stair width was not designed to 
handle a full building evacuation. Elevators, however, can 
remove 12 percent of the people inthese buildings within 5 
minutes.
    When using an elevator as part of the emergency action plan 
provision, the following conditions need to be met. All 
elevator cars must be recalled to the fire department entry 
floor and be held in place. The elevator is to be manned by a 
trained Capitol staff person. A two-way voice communication 
between the evacuation director and each elevator car must be 
established. And when a person with a disability needs an 
alternative evacuation, the floor should be recognized and 
posted at the fire command station.
    To assist first responders, a comprehensive building 
information card must be available at the fire command station. 
This card will give a description of the building, its support 
systems and contain a schematic of floor plans. This will also 
greatly enhance the fire department commanders with the areas 
of refuge assistance.
    Under a unified command structure, all first responders 
need to cooperate and coordinate the endeavors with EMS, fire, 
police, the D.C. Office of Emergency Management and, when 
necessary, the military, to rapidly reduce an incident.
    A quick and easy procedure for first responders when 
assisting people with disabilities is to ask that person how 
you can best help them before any assistance is given, if they 
have any limitations or problems that may affect their safety, 
and when carrying the person, avoid putting pressure on their 
arms, legs and chest.
    The new all-hazard emergency evacuation modes need to be in 
place so as to assess the various threat levels for an 
effective evacuation. The recognized strategy will utilize the 
tactical considerations for a full and/or partial evacuation, 
internal relocation and/or shelter-in-place with specific 
directions for the use of elevators and stairs.
    An annual evacuation drill will help identify critical 
coordination activities, the potential behavior of occupants, 
and communication links for both fire and all-hazard 
emergencies. Immediately after an exercise, a participant hot 
wash should be conducted by gathering people together in 
different functional groups. This information can provide 
insight into what events happened the way they did or why 
expected actions did not take place.
    In closing, the emergency action plan for accessibility 
must be a commonsense approach, so as to reassure that life 
safety is the welfare of all occupants. There are other 
emergency features that need to be implemented, such as a 
public accountability knowledge system to assist the incident 
commander with real-time information on people who have 
evacuated and assist with critical medical information and mass 
casualty incidents. The installation of photo-luminous markings 
within all stair towers will greatly enhance an evacuation in 
total darkness that must follow a proscribed standard, and 
elevators which are currently being evaluated by the National 
Institute of Standards and Technology need to operate in all 
emergencies, including fire, so as to enhance life safety.
    These series of suggestions will give flexibility and more 
effective applications to a growing need that has, with such 
menacing suddenness, alerted us to respond to it with a 
determined purpose.
    I would like to thank you today for the opportunity to 
share these experiences with you.
    [The statement of Mr. Murphy follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.028
    
    [GRAPHIC] [TIFF OMITTED] T3251.029
    
    [GRAPHIC] [TIFF OMITTED] T3251.030
    
    [GRAPHIC] [TIFF OMITTED] T3251.031
    
    [GRAPHIC] [TIFF OMITTED] T3251.032
    
    [GRAPHIC] [TIFF OMITTED] T3251.033
    
    The Chairman. Thank you, Mr. Murphy.
    Ms. Davis.

          STATEMENT OF ELIZABETH A. DAVIS, J.D., Ed.M.

    Ms. Davis. Mr. Chairman, and members of the committee, let 
me be the first one today to say good afternoon instead of good 
morning, and that I thank you very much for the opportunity to 
appear before you to continue our conversation.
    Since my practice is based in New York City, I wish to 
actually look there for an example, but I want to go back some 
time in history to the afternoon of March 25, 1911, as a fire 
broke out on the top floors of the building that housed the 
Triangle Shirtwaist Company, one of the most tragic fires in 
American history. And by the time the fire was extinguished, 
nearly 20 minutes after it had begun, 146 were dead. These were 
working immigrant women, some as young as 15 years old.
    What the fire did was to draw attention to a horrific 
tragedy that was just waiting to happen; it spotlighted the 
following fact: The building itself faired well. The terra 
cotta encased support beams actually held under the fire's 
intense heat. The human condition, however, was devastating. 
The fire inspections and precautions were woefully inadequate. 
This was one of the first times in our history when the 
resulting outcry was heard: People in buildings must be more 
valued than the buildings themselves. What followed, therefore, 
was a State Review Commission, legislated fireproofing, 
mainstreamed use of sprinkler systems and new safety standards.
    Here, now, no matter what the event that churns our review 
process, we have an opportunity to learn from our past. Allow 
me to state the obvious: The disability community is not a 
homogeneous group, and as such, one-size-fits-all safety 
solutions will not work. Incidentally, this is also why a 
template solution without adaptation fails at that point as 
well.
    We must account for those persons with disabilities known 
to us as planners, those whom we can reasonably assume exist, 
as well as those unknown to us at the onset of planning. In 
total, this includes visible and invisible disabilities, 
episodic and chronic, motor, sensory, cognitive--in fact, the 
entire spectrum of difference. And our focus today, while it 
seems to be on getting out of a structure, in fact will have an 
application to the general population at large as it must be 
acknowledged that disability is in some ways an equalized 
factor: At any time, anyone can find themselves newly entering 
this group.
    Examine a few general examples, if you would, of both low- 
and high-tech solutions established initially for the benefit 
of just persons with disabilities but which in fact have had a 
significant safety impact on all persons. Audible way findings 
signage, perhaps installed for those with low or no vision, in 
heavy smoke conditions, this tool can assist anyone to locate 
an exit or an escape route.
    Exit door highly-visible color designation, perhaps painted 
for a person with cognitive disabilities, in a time of high 
anxiety or confusion, this immediately recognizable distinction 
assists anyone in locating the correct exit door.
    Stairlanding intercoms, perhaps installed for persons with 
mobility disabilities but usable by anyone unable to negotiate 
stairs due perhaps to a heart or respiratory condition or even 
pregnancy.
    The placement of an interactive communication system 
connects directly from that enclosed Area of Rescue Assistance 
to the building command post meaning immediate notification of 
needs to rescue personnel.
    Stair evacuation devices and equipment, perhaps purchased 
with a specific employee in mind, strategic placement of 
several of these devices can be used to remove anyone from a 
dangerous area, including those, perhaps, impacted by the 
initial triggering event.
    But no matter the event or the equipment available, the 
single most important emergency planning factor in survival 
remains practice. Two examples: A local service provider with 
offices just blocks from the World Trade Center in Manhattan, 
after the first World Trade Center bombings in 1993 worked with 
the Office of Emergency Management and with the Fire Department 
of New York City to develop a building evacuation plan 
specifically for its staff, most of whom had limited or no 
vision themselves. Their proactive approach and practice, in 
fact, paid off during the events of 9/11 when the entire staff 
was able to calmly and safely self-evacuate from the 9th floor 
of their office building. They recount hearing other 
underprepared building occupants yell, ``Follow the blind 
people, they seem to be know where they are going!''
    A second example: A manager who uses a wheelchair was 
physically carried down 65-plus flights of stairs in 1993, but 
after that event, the agency purchased an evacuation chair for 
that manager and trained an entire team of co-workers in its 
use. While they certainly had to transverse several staircases 
to exit the building, the group of nine persons made it out in 
just under one hour, as compared to the 5-plus hours it had 
taken them in 1993. This time lapse quite literally was the 
difference between life and death.
    Prior to the events of September 11th, many members of the 
disability community, when asked to honestly articulate their 
own emergency plans, would state in very clear and certain 
terms, they would likely be left to last and only hope that 
help would reach them. The answer then moved from this to the 
realm of acknowledging a co-worker, a neighbor or perhaps a 
stranger who could take on the role of ``buddy.'' Incidentally, 
the buddy concept has evolved into a concept of ``network of 
assistance.'' But now the disability community, as just 
illustrated, is saying more loudly that we have an active role 
to play in our own survival, and that none of these past 
solutions alone appear to be acceptable.
    For now these tools should include not only actual devices 
and rehearsed drills, but also egress modelling, taking people 
with disabilities into account as well as a review of some of 
those entrenched standard protocols. The most apparent gaps 
existing today are in the following categories: 1. Notification 
and warning. No consistent use of technology and multiple 
mediums in the built environment to provide immediate, 
consistent and critical emergency information to all persons 
effectively. 2. Evacuation----
    The Chairman. Could you say that one more time?
    Ms. Davis. Certainly. My point with regard to notification 
and warning is that the gap appears to be that we have not 
agreed upon a consistent use of technology. We have not 
recognized the use of multiple mediums within a built 
environment. And this, therefore, I would suggest, means that 
we have eliminated consistent critical information from 
reaching all persons.
    If I might add, by example, multiple medium use--we talked 
about some of the higher-tech technologies, some of the 
infrared systems, perhaps some of the dual-communications 
systems in certain areas. I would be happy to provide, after 
this hearing, to all Members a communication picture board, a 
pictorial opportunity to convey emergency or evacuation 
information with persons, including those who are non-English 
speaking. This was provided to the Sergeant at Arms two years 
ago, and it might, in fact, offer some answers or certainly 
spur some thought, and I will get that copy to you.
    Other areas include two evacuation devices. Here, again, 
are gap areas where no usability standards, no review standards 
and no comparison standards currently exist. The sad reality 
remains--and I have said this many times--is that I can find 
out more on the internet today about a TV or a VCR before I buy 
one than I can about life safety equipment purposely designed 
to assist persons with disabilities.
    Until we do a better job at pointing out that many 
solutions already exist, those with specific purposes as well 
as new applications, we lose out on the ability right now to 
put things in place that can make a difference. I would suggest 
that this is not dissimilar from the new sprinkler regulations 
post-1911, even though that tool existed since the late 1870s.
    Today's hearing adds to the discourse now underway within 
the emergency professional community, the academic community, 
the regulatory community and the disability community itself. 
Attitudes that emergency needs of people with disabilities are 
somehow less important a priority as they impact only a few 
certainly must be dispelled. Attitudes that solutions cannot be 
realized must be dispelled. And attitudes that what is 
developed or changed for a person with a disability in this 
area does not have broader application must also be dispelled. 
And this committee hearing I believe is helping in this 
process.
    The Capitol Police, the House Emergency Management 
officials and other planners have an incredible responsibility 
and have done certainly a Herculean job at balancing many 
competing interests. I submit that the legacy of this Committee 
and the tangible outcomes of this hearing could be the 
establishment of a Special Needs Emergency Working Group, not 
dissimilar from many now created by State and local governments 
and many private businesses. This group would be a cross-
disciplinary membership of multiple stakeholders working with, 
not for, people with disabilities and acting in support and in 
an advisory role tothe members who are actually tasked with the 
responsibility of planning. This group would be in the position to look 
to our colleagues here at the USDA, U.S. DOT, DOL and U.S. Access 
Board, to name a few. We can look to them for recommendations based on 
their internal efforts and planning for these same issues.
    And with such an effort, this committee moves the process 
along in a meaningful way. The planners find new and innovative 
support and subject knowledge, and the country sees the House 
leading by example, a wonderful message to coincide this week 
with the 15th anniversary of the signing of the ADA and all of 
the efforts over the past year since the signing of Executive 
Order 13347.
    And in closing, I offer a call to action. If people with 
disabilities are not taken into account before an event, the 
issues will not be addressed properly during a disaster, and 
this will certainly have a huge impact not just on that 
individual, but on the entire community after the emergency.
    I thank you very much for permitting me to summarize what 
is certainly a broader and more complex topic. In the interest 
of time, I have submitted an abbreviated resource listing, this 
I should point out, with many empirical studies currently 
funded with Federal dollars. Several actually use studies of 
full movement models and include the component of 
``capability'' or ``special need'' to evaluate evacuation 
procedure and protocol.
    I want to thank you and persons in attendance for your 
sincere interest in and your hard work on this very important 
issue.
    [The statement of Ms. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T3251.034
    
    [GRAPHIC] [TIFF OMITTED] T3251.035
    
    [GRAPHIC] [TIFF OMITTED] T3251.036
    
    [GRAPHIC] [TIFF OMITTED] T3251.037
    
    [GRAPHIC] [TIFF OMITTED] T3251.038
    
    [GRAPHIC] [TIFF OMITTED] T3251.039
    
    [GRAPHIC] [TIFF OMITTED] T3251.040
    
    [GRAPHIC] [TIFF OMITTED] T3251.041
    
    [GRAPHIC] [TIFF OMITTED] T3251.042
    
    [GRAPHIC] [TIFF OMITTED] T3251.043
    
    The Chairman. A vote is coming up, but I do have a 
question. I have a little more work to do based on the 
testimony involved in all three, the wonderful testimony of all 
three of you.
    Is there anything in your mind that stands out, public or 
private sector, in terms of a building that has been updated 
and equipped for a person that has a disability? And in 
conjunction with that, have you seen any particularly 
innovative planning processes?
    Mr. Murphy. There are some buildings that have been 
retrofitted to a degree, taking a look at, for example, a 
building that has stairwells, open stairwells. While you may 
enclose the corridor, put up fire doors, that will close 
automatically. If that can't be done, take a look at a room 
near the staircase that can be designated as a disabled place, 
for assistance, that has an exit to the street side. We at 
least can get the individual out. That would be equipped with a 
voice box that you push the button that would go down to the 
fire command and tell the person where they are in that 
particular building. And to do that in a stack effect, if you 
do it on the floors, as long it is in reach of a ladder, you 
might be able to use that as a long alternative to get out. So 
there are buildings out there that are looking at that.
    Ms. Davis. I think I would add that we can consider not 
just the actual hardening of physical structural, (or not just 
the equipment, but also the practiced protocol for the change 
in our standard of emergency planning). All three of those 
areas creates an opportunity for us to look readily for 
creative solutions, even if they don't appear to be readily 
available to us in a building environment.
    The Chairman. Let me ask one other question, if I could, 
and that is, do you have any comments on anything in these 
buildings?
    Mr. Murphy. Any obstruction in the hallway from the fire 
service is an impediment, no matter if it is temporary or 
permanent. The hallways are designed for a reason. This is a 
very large building. The width of the hallways are 8 to 10 
feet. You see them in schools. If you have narrow ones, it gets 
even worse.
    The aspect here that we talk about buildings being fully 
strengthened, but what it needs is a balanced approach. 
Buildings full of sprinklers, will it put the whole fire out? 
Once that sprinkler goes off, that hot smoke and gas banks down 
to the floor real quick. If it gets out into the hallways, it 
might not be hot smoke or heat, but you still have a blindness 
of finding where the stairs are. Any buildings that have open 
stairwells or flues, chimney flues, if you have a fire in the 
basement, this will override a building and make it a hazard to 
get out within several minutes.
    When the sprinkler does go off, how is the smoke being 
contained? If that smoke is traversing down from the heat and 
everything at a thousand degrees, and maybe you can move 
through, you might get disorientation, where are the 
stairwells? If I compartmentalize that, it gets out into the 
hallway. That smoke, which is now banked down to the floor, you 
might not be able to see those staircases. As a fire fighter in 
a sprinkler building, I listen to the sound of the water 
flowing to get me to the scene of the fire.
    The Chairman. So to summarize that, if you have to get down 
and you can't see, you are going to be knocking these down, and 
they are going to go across each other, and now you have a real 
hazard, of all these things that are on these tripods crossed 
with each other. Now you not only have potential hitting them, 
they are filling the hallways, both sides, and you couldn't 
possibly get out if you had to, is that correct?
    Mr. Murphy. Yes. A lot of things that we did, Mr. Chairman, 
in schools, we have taken out stands and everything else. We 
let them put display boards on the wall. While it isn't 
friendly, it at least cuts down on the obstructions.
    Ms. Styron. I only suggest that as the committee moves 
forward to egress routes, to be clear of all obstacles; 
thatwill certainly increase the chances of survival of all other people 
in these buildings as well.
    Ms. Davis. I would just add, when we talk about individual 
preparedness and planning--whether we do this through 
reminders, fliers, announcements--attention must be brought 
back to those points every so often. We look to ourselves and 
also take into account our own environment; have things 
changed? Is there an office that is moving? Is there a 
temporary blockage? Things that will impact us today if we need 
to traverse the same hallway. So I think we need to raise the 
level of personal preparedness to the point, with or without 
disability, that we have done our own checklist on a daily 
basis of the environment we encounter for work, or as you 
suggested, as a guest member here as well.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    Regarding some of the things you expressed--we would be 
able to ask our experts questions, but two of them have left 
already.
    But have any of you reviewed some of the areas that we have 
improved upon due to ADA? Have any of you gone through and 
reviewed any of this?
    Ms. Styron. We have not been given an opportunity to review 
buildings or the ADA reports that are being released prior to 
this testimony. Other than my previous experience having worked 
on the Hill, we haven't been able to physically see the 
upgrades other than that what we hear in the testimony or that 
we might be aware of otherwise. We have not been able to do 
that prior to today.
    Mrs. Miller of Michigan. And it seems, as I said to the 
second panel, who are the officials of this place overseeing 
different offices and organizations, that I need to physically 
go through and see, too; because people can say one thing, but 
until you have seen what they have done is another thing, and 
to see whether or not that is adequate for what we are trying 
to get and to put in place.
    It seems to me, Mr. Chairman, that we need to convene a 
meeting just with the experts and our head persons, who were on 
the second panel, to have an informal discussion--it doesn't 
have to be a hearing--so that we can exchange these, and then 
we will be able to walk and physically see this. That is the 
only way we are going to get down to the crux of what we are 
really trying to convey and trying to put in place for our 
folks who have special needs.
    And so, it is not enough to just talk back and forth here. 
I think it is time for three experts--or whoever the designee 
experts are--to get with the members who preceded you to talk 
about that.
    Mr. Murphy talked about--sometimes when you see me speaking 
to the staff, I want to know, do we have such things in place, 
so I am trying to see who is communicating what. And it seems 
that there is not communication flowing enough, because if you 
have a fire drill, that should be a different drill than an 
evacuation drill, because it seems to me they are not 
congruent, in my opinion. An evacuation drill should then tell 
folks where to go. And then there should be groups of folks 
there to say, are all persons in my group here, and if they are 
not here, who do I need to tell that they are not 
here?Communication has to flow.
    So, Mr. Murphy, you said that all elevators should be 
operating in an emergency. And that is what I am saying--if I 
was trapped on the fourth floor, I would just wait for an 
elevator. I am going to take the elevator and get out of this 
building. And so that is what I have heard you say, and expand 
on that, if you would.
    Mr. Murphy. What we are working on, and we are trying to do 
it through several groups, I am a member of the National Fire 
Protection Association High-Rise Task Force, we met recent with 
NIST on elevators and how to work them into the overall fold of 
not only all-hazards, but for fires. We are looking at 
compartmentalizing elevators, separating them from the building 
itself--enclosing it.
    What we did in New York City is, all elevators above the 
first floor must be enclosed. What we are trying to do is stop 
the smoke from traveling up and spreading out to all the 
floors. You can have a very small fire and still have the smoke 
travel throughout the building. They are doing that now. We 
have some guidelines on that, and World Trade Center Seven, 
that type of elevator is going in. We also asked when we got a 
World Seven elevator dedicated to the fire service that will be 
used only for the fire service, but we encourage VIP use, so it 
is used every day. We see this in the British codes, where they 
have elevators, lifts to the fire service. Elevators, if we can 
run them outside of the building on the rain, snow, hail, why 
can't we get one or two that will run on adverse conditions in 
a building? So that initiative has gotten all the elevator 
people together to take a look at that.
    What can we do right now? Right now is just, don't rely on 
one elevator. What if that is the area that you have to 
evacuate? And if you use the elevator, if there is some type of 
contaminant, that is a piston that will drive that product up 
into the building.
    The Capitol Building is a low-rise building. However, I 
call it a hazard high-rise. It is over 700-feet long. How do 
you get from one end of the building to the other end of the 
building? Break it down, not to a full building. What if you 
are left with one stairwell to evacuate? That is thebottom line 
of that. How do I direct people when they leave?
    In our training aspect in New York high-rises, we train the 
staff first, get them comfortable. We drop them down, all the 
way down. They will see what horizontal corridors are. On the 
15th floor, you traverse over and go all the way down. We take 
them to the outside of the street and say, where are you? The 
only day we mark A, B, C and D on the stairs. We walk them 
around and say, if you are given specific directions--
attention, attention, this is the fire safety threat, we have a 
Code Black, police, evacuate the stairs, and color green. When 
they get down to the bottom, they know they are at J Street. 
What direction do you have to go if we tell you north, south, 
east or west? So those are the things we are trying to define a 
little bit more. It has been thrust upon us.
    I agree with the architects here; every building is 
grandfathered. They were never designed to be fully evacuated 
like this. So we are trying to work in the confines of what we 
have existing. Now, however, going forward, how do we make 
these things better? Because if they weren't designed that way, 
all of these stair towers would be 6-feet wide. There would be 
15 exit discharges at the bottom at the street level as you 
have at the MCI Center and things like that.
    Mrs. Miller of Michigan. And they were not designed to 
carry as many folks who are in here, too. So you have all of 
those things now that have just expanded beyond the capacity of 
what we have now.
    There are so many questions to raise here. There are so 
many things. They are telling us the vote is going to go off, 
and we don't want to be in the middle of that.
    Ms. Styron has suggested a working group. I think there 
should be some type of a meeting with our experts and those who 
are responsible, because after all, with all these things they 
are trying to grapple with, we have to rely on the experts. And 
there should be an informal meeting just around the table where 
we all talk and then we all go and review what we talked about 
and see what is best.
    Mrs. Miller of Michigan. The last thing is this EvacuTrack. 
This is something that it seems like we need to invest in as 
well, where those that do not have the capacity to get to an 
elevator can go downstairs.
    Ms. Styron. We are looking at evacuation assistive devices. 
There are many different ones on the market to address 
different needs for different individuals, and when you are 
looking at possibly appropriating different pieces of 
equipment, we really need to have done what you said, a working 
group, and think about the considerations that we are really 
trying to address and what they can do for the individual.
    Ms. Davis. Factors that go into taking into account your 
selection of purchase of equipment would include not just the 
equipment itself, but the facility in which you intend to use 
it. Very different than just the type or intent, the user and 
cost factor need study too. These are all elements that come 
into play. And there are a number of marketed items now 
available that would meet these different needs, but it might 
be a different piece of equipment in one building rather than 
another or even on different floors of the same building. So as 
long as you keep that issue open, you will find the most 
appropriate solutions.
    Mrs. Miller of Michigan. I can accept that.
    Mr. Chairman, thank you.
    The Chairman. Let me just close, I just want to summarize a 
couple of things.
    I have learned a lot today. And I was just saying to our 
Ranking Member, we don't need an act of Congress to make this 
happen. We can sit down together. The Ranking Member is 
supportive--we have a bipartisan group here, and we have two 
staffs. We can work this out. We don't have to pass an act of 
Congress.
    This hearing went in the exact direction we wanted it to 
go, from the testimony of a Member of Congress himself and then 
from our officers who deal with this on a daily basis and then 
to our experts and advocates for these issues. I think it is 
healthy that we recognize that we have done a lot of things, 
with everybody working together in an unusual situation since 
9/11. We had to address a lot of different issues. Sometimes we 
take a broader picture and forget the important things.
    You do learn by loss. My cousin and her husband were deaf, 
and I worked a lot with the blind. When we had a staffer who 
was blind, the interesting thing is he had a device where he 
listened. It is for him, but I listened to it and realized, I 
can use that too. I don't have to read that. I can use it. That 
is a clear example where we learn. So things we do for persons 
with special needs will help the whole in a lot of cases.
    As I look through your testimony, there are some things you 
addressed that we aren't up to speed on, but that we can be up 
to speed on. We will sit down and form some type of a working 
group--our officers are always open to that--to see how we can 
make things better.
    This, to me, was a very positive hearing. I want to thank 
Ms. Styron, National Organization on Disability, and all of you 
for participating.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman, for a 
great hearing.
    Ms. Styron. Thank you very much.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
